<html>
<title> - NOMINATION</title>
<body><pre>[Senate Hearing 111-929]
[From the U.S. Government Publishing Office]



 
                                                        S. Hrg. 111-929

                              NOMINATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS


                              FIRST SESSION

                               __________

                              MARCH 25, 2009

                               __________


       Printed for the use of the Committee on Foreign Relations



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                   Available via the World Wide Web:
                        http://www.fdsys.gpo.gov


                              __________


                    U.S. GOVERNMENT PRINTING OFFICE
65-248 PDF                    WASHINGTON: 2011
------------------------------------------------------------------------------For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a0c7d0cfe0c3d5d3d4c8c5ccd08ec3cfcd8e">[email&#160;protected]</a>  











                COMMITTEE ON FOREIGN RELATIONS          

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York


                 David McKean, Staff Director         
        Kenneth A. Myers, Jr., Republican Staff Director        

                             (ii)          




                            C O N T E N T S

                              ----------                              
                                                                   Page

Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    19


Hill, Hon. Christopher R., nominated to be U.S. Ambassador to the 
  Republic of Iraq...............................................     6

    Prepared statement...........................................     8


Kerry, Hon. John F., U.S. Senator from Massachusetts.............     1


Lugar, Hon. Richard G., U.S. Senator from Indiana................     3


Reed, Hon. Jack, U.S. Senator from Rhode Island..................     5


Reponses to Additional Questions Submitted for the Record to 
  Ambassador Christopher R. Hill by Senator Richard G. Lugar.....    41

                                (iii)


                               NOMINATION

                              ----------                              


                       WEDNESDAY, MARCH 25, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                       Washington, DC.


Christopher R. Hill to be Ambassador to the Republic of Iraq
                              ----------                              

    The committee met, pursuant to notice, at 9:41 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Dodd, Feingold, Menendez, Casey, 
Webb, Kaufman, Lugar, Corker, Isakson, Risch, DeMint, Barrasso, 
and Wicker.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order. Again, I 
apologize that we are starting a little bit late.
    Senator Reed, thank you for being here. We appreciate it 
very, very much.
    This committee will hold many hearings this year and many 
confirmation hearings, obviously, but I do not think there will 
be many as important than the two hearings we hold this week 
for Ambassadors to Iraq and Afghanistan; 143,000 American 
military personnel remain in harm's way in Iraq and about 
40,000 more are in Afghanistan, and the outcomes of these wars 
will have profoundly important consequences for our Nation. Our 
diplomacy is going to be crucial to the outcome of the struggle 
in these countries.
    We begin today with Iraq. In Ambassador Christopher Hill, 
President Obama has chosen an extraordinarily talented Foreign 
Service professional with a long and distinguished record of 
service, and I am convinced that he is the right person for 
Iraq.
    Often the reward for diplomats who succeed in difficult 
postings with long odds is tougher assignments with longer 
odds. Ambassador Hill has made a career, now entering its 
fourth decade, of tackling seemingly intractable diplomatic 
challenges.
    Make no mistake. Iraq today still presents extraordinary 
challenges. While we have set a time table for withdrawing our 
troops, as many of us have long advocated, in an effort to 
accelerate the willingness of Iraqis themselves to take 
responsibility and stand up, we all understand that our work 
there is far from finished. The days when we could hope to 
impose solutions in Iraq are long past. It is the Iraqis who 
will ultimately determine their own future. Our task is to 
leverage our troops' redeployment into a sustainable political 
accommodation that prevents Iraq from sliding back into 
widespread ethnic or sectarian violence. To succeed, we will 
need to address Iraq's potentially volatile internal conflicts 
and complex regional dynamics through a series of overlapping 
diplomatic and political initiatives involving a multitude of 
actors.
    Fortunately, Ambassador Hill brings particular talents and 
experience well suited to this mission. In addition to serving 
as Ambassador to Macedonia, Poland, and South Korea, he was 
also Special Envoy to Kosovo in 1999, and one of the top 
negotiators of the 1995 Dayton Accords that ended the war in 
Bosnia. Both of those experiences give him crucial experience 
solving complex problems of ethnic civil wars.
    As we all know, as Assistant Secretary of State for East 
Asia and Special Envoy to the six-party talks, he had to 
coordinate delicate multilateral negotiations on North Korea's 
nuclear program while dealing directly with an extremely 
difficult regime in Pyongyang.
    Ambassador Hill, I believe that all of your considerable 
skills will be called on in Iraq, and among the many challenges 
you will face there, let me just focus very, very quickly on 
several.
    First, resolving the status of Kirkuk and other disputed 
territories. Arab-Kurdish tensions run high in Kirkuk, which 
remains a potential flash point for violence, and meaningful 
efforts to reach agreement on Kirkuk's final status cannot be 
put off indefinitely.
    In Mosul, a strong showing in recent provincial elections 
by an anti-Kurdish coalition illustrated rising tensions there, 
as did a tense military standoff in Diyala province last summer 
between the Iraqi army and Kurdish Peshmerga. If progress is 
not made in diffusing Arab-Kurdish tensions while American 
forces remain in Iraq, the window for peaceful resolution of 
Kirkuk and other dispute territories may close.
    Two, passing the oil laws. Despite repeated assurances that 
an agreement was near, negotiations to finalize a series of 
laws regulating Iraq's oil resources appear to be no closer to 
completion now than they were 2 years ago. The fundamental 
issue is the disagreement between Baghdad and the Kurds and the 
Kurdish region's ability to enter into oil exploration and 
production contracts. Though the Iraqis, to their credit, have 
been sharing oil revenues, the country still lacks an 
overarching legal and political framework for its oil industry, 
the lifeblood of the country's economy. Again, time is of the 
essence because developments on the ground that will only make 
the solution more difficult to achieve.
    Third, involving Iraq's neighbors in stabilizing the 
country. Many of us have long encouraged vigorous, sustained 
diplomacy to encourage Iraq's neighbors, including Iran and 
Syria, to play more constructive roles in Iraq. The Arabs have 
begun to cautiously engage with Iraq and they should be 
encouraged to do more. I believe that as Ambassador to Iraq, 
you are going to have an important role to play in this 
process, and your predecessor, Ambassador Crocker, had three 
rounds of meetings with his Iranian colleague in 2007. We hope 
the administration will strongly consider restarting these 
talks.
    Fourth, full integration of the Sunnis. Although some 
progress has been made in incorporating Sunni Arabs into Iraq's 
new political structure, December's parliamentary elections can 
play a key role in consolidating this process. Integrating the 
Sunni militias, which played such a key role in turning the 
tide in Iraq, remains a major concern.
    Fifth, addressing refugees and internally displaced 
persons. Millions of Iraqis, perhaps as many as one in six, 
have been forced to flee. The unwillingness or inability of the 
vast majority to return to their homes is an indicator of 
Iraq's continuing instability and a potential source of future 
conflict. Iraq's religious and ethnic minorities are 
particularly at risk, and this is a problem that will only grow 
worse if it is not addressed.
    Finally, the importance of training Iraq's Security Forces 
cannot be overstated if they are to be fully capable of 
independent action once we leave. This highlights the 
importance of achieving a high degree of civil-military 
cooperation between our diplomats and soldiers in Iraq. I 
strongly believe that one of the principal reasons that GEN 
David Petraeus and Ambassador Ryan Crocker were able to 
accomplish so much is because they worked together so closely. 
I know that General Petraeus' successor, GEN Ray Odierno, is 
looking forward to building a similar relationship with you, 
which is why both men and Ambassadors Crocker, Khalilzad, and 
Negroponte have spoken of the urgent need to get our Ambassador 
to Baghdad as quickly as possible.
    I emphasize that to my colleagues here in the Senate. I 
understand that some colleagues may have objections to a 
nominee. That is their right with respect to any Presidential 
nomination, and some, I am told, may be considering holding up 
a vote on this nomination until after the upcoming recess. I 
could not stress more urgently to my colleagues the 
counterproductivity of such a move. Senators have every right 
to vote against Ambassador Hill, but I believe that using 
Senate procedures to delay his arrival to Baghdad at a critical 
time in this war would do a serious disservice to our efforts 
there. This is not a time for delay.
    As the Pentagon made clear last week, ``It is vital that we 
get an Ambassador in Baghdad as soon as possible because there 
is no substitute for having the President's Envoy, the U.S. 
Ambassador, in place and on the job.''
    So this committee will move quickly to discharge Ambassador 
Hill who has committed to depart for Iraq within a day of his 
Senate confirmation. I told him I would do everything I could 
to see that he gets that chance, and I look forward today to 
hearing his thoughts on the path forward in Iraq.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, I join you in stressing the 
urgency of having our Ambassadors in Iraq and Afghanistan. I 
thank you for scheduling this hearing today promptly and 
likewise to hear General Eikenberry tomorrow morning because 
these Ambassadors are critical in the support of our Armed 
Forces in those two countries. Now, we are at war. This is not 
a parliamentary struggle among Senators who have diverse points 
of view. And so I thank you for emphasizing that in your 
statement.
    And I join you in welcoming our distinguished nominee 
today, Ambassador Christopher Hill. As you pointed out, during 
his 32-year career, he has led three embassies, served as 
Assistant Secretary of State for East Asia and Pacific Affairs, 
and in that position additionally was the administration's 
point man in the six-party talks on North Korea. As Assistant 
Secretary, Ambassador Hill demonstrated outstanding diplomatic 
and managerial skills in dealing with one of the most difficult 
foreign policy challenges. His innovative and meticulous 
approach contributed to successes, including the ongoing 
disablement of the Yongbyon nuclear complex in the presence of 
American monitors--I would point out that the staffs of this 
committee, both Republican and Democratic, have been to 
Yongbyon, have seen that situation with Syd Hecker--the reentry 
into North Korea of IAEA officials, and the potential 
transition of the six-party process into a forum for broader 
multilateral engagement in Northeast Asia.
    I have appreciated especially Ambassador Hill's 
accessibility to the Senate Foreign Relations Committee. In 
addition to nine appearances before the committee in the last 5 
years, he has always been willing to meet with us privately 
about developments on the Korean Peninsula or elsewhere in East 
Asia.
    Through the confluence of many factors, Iraq is showing 
positive trend lines, and American casualties are at their 
lowest mark since the conflict began 6 years ago. The Iraqi 
Government held successful elections last month, and those 
provincial councils are convening, electing chairmen, and 
beginning to set their agendas.
    But progress in Iraq remains very vulnerable to political 
rivalry, outside interference, and the slow pace of economic 
reconstruction. Government institutions at all levels remain 
underdeveloped, inefficient in many cases, and subject to 
corruption. The economy, which grew at a rate of 3.5 percent in 
the first two quarters of 2008, has slipped as oil prices have 
dropped, and oil production rates are flat. Reduced revenues 
may slow the efforts of Iraq's Government to make necessary 
infrastructure investments. Unemployment and underemployment 
remain high.
    Ambassador Crocker and General Odierno describe Iraq's 
progress as fragile and reversible. With this in mind, we need 
the clearest analysis possible of the likely effects of 
downsizing the U.S. military presence. We also need a more 
definitive outline of the missions of the 50,000 troops that 
will remain in Iraq. And without a detailed mission statement, 
it is impossible to judge whether the force is appropriate. We 
also need to understand how the civilian components of the 
American presence, including the Embassy and the PRTs, will be 
affected by the downsizing of the military operations.
    The six-party process that Ambassador Hill oversaw required 
the U.S. diplomatic team to address issues pertaining to the 
entire region. I believe success in Iraq will increasingly 
depend on regional factors involving the activities of both 
friends and adversaries. We must work to reassure allies and 
send adversaries the clear message that the United States 
remains committed to regional stability and has no intention of 
leaving a vacuum in Iraq that could be exploited.
    Prime Minister Maliki's outreach to the Sunnis has already 
reduced tensions among Iraq's Sunni neighbors. Leaders from 
Turkey, Jordan, Syria, and virtually all of the Gulf States, 
including Kuwait, have paid high-level visits and appointed 
ambassadors, indicating acceptance of the Shia-run government.
    Across the region and internationally, the incentive 
structure for involvement in Iraq is fundamentally different 
than it was 2 years ago. Coupled with the drawdown, the time is 
right to expand our engagements, solidify regional security 
gains, and cultivate more robust regional and international 
cooperation in Iraq. Ideally, this cooperation would include 
regular and wide-ranging talks with neighboring states on 
broader issues of regional security. One of the purposes of 
these talks must be to avoid surprise and miscalculation in the 
region that could ignite further conflict.
    Trilateral talks between the United States, Iraq, and 
Turkey could be expanded to include more participants such as 
Syria and Jordan and more issues such as displaced Iraqis. 
Trilateral talks with Iran and Iraq should recommence and 
perhaps include more of Iraq's neighbors and other concerned 
powers.
    We should seek to facilitate Iraq's return to regional and 
international institutions, which could reduce our long-term 
burdens. Iraq may not need development assistance, but it does 
need trading partners and expanded diplomatic and technical 
help from international agencies.
    I look forward today to hearing Ambassador Hill's views on 
these and many other topics. I certainly appreciate, as you 
pointed out, Mr. Chairman, his willingness to accept this very 
difficult post, especially after several years of intense 
diplomatic activity. I thank you again, Mr. Chairman, for 
calling the hearing.
    The Chairman. Well, thank you, Senator Lugar, and thank you 
for your important comments of why Ambassador Hill is the right 
person for this job.
    We are pleased to have one of our colleagues who is 
recognized throughout the Senate as being one of the most 
knowledgeable about Iraq and who has spent an enormous amount 
of time, as a member of the Armed Services Committee, traveling 
there and understanding the situation and working with each of 
the commanding generals who have been there. So, Senator Reed, 
we really appreciate your taking time to be here and look 
forward to your introduction.

                 STATEMENT OF HON. JACK REED, 
                 U.S. SENATOR FROM RHODE ISLAND

    Senator Reed. Thank you very much, Mr. Chairman and Senator 
Lugar and colleagues. I am just delighted to be able to 
introduce Ambassador Christopher R. Hill, the President's 
nominee to be the Ambassador to Iraq. Chris is a native of 
Little Compton, Rhode Island. We are awfully proud of him in 
Rhode Island for his contribution to the Nation and for a 
lifetime of service. He graduated from Bowdoin College and 
later received a masters from the Naval War College in Newport, 
Rhode Island.
    He has a distinguished a career, exemplified by service 
across the globe. As a young Foreign Service officer, he served 
in Warsaw, in Belgrade, then in South Korea. He later was the 
Deputy Chief of Mission in Albania.
    I first got to know Chris in 1996 when he was the 
Ambassador to Macedonia. I was extremely impressed with the way 
he could handle a very difficult situation, a situation 
involving conflicting religious impulses, multiethnic 
rivalries, and ancient animosities, and also the way he worked 
so successfully with our military. We had division-sized units 
on the ground. His rapport and the mutual respect was quite 
obvious. Those talents and those traits are going to be 
essentially critical to his role in Iraq.
    And as we all know, he later became the Ambassador to South 
Korea where he teamed up with another Rhode Islander, General 
Leon LaPorte, and once again, together with a distinguished 
military officer, took on a major mission requiring diplomatic 
and military sensitivities and, once again, he showed himself 
to be a master of the situation.
    His efforts with respect to the dismantling of a main 
nuclear facility and the accounting for the plutonium of the 
Koreans I think represents some progress in a very, very 
difficult situation at a point where many before Chris arrived 
thought there would be little or no progress at all.
    He has been recognized by the State Department with 
numerous awards.
    He speaks Polish, Serbian, Macedonian, and French.
    And he is married to Patricia Whitehall Hill, and they have 
three children, Nathaniel, Amelia, and Clara, who continue to 
sustain him at difficult moments.
    And Mr. Chairman and Ranking Member Lugar, I can think of 
no one more qualified for this important job. Thank you.
    The Chairman. Thank you, Senator Reed. We really appreciate 
that. And I know you have to be excused to run off to other 
business, but we thank you for taking time to come here.
    Ambassador Hill, we welcome your testimony and look forward 
to a chance to have a good dialogue with you.

    STATEMENT OF HON. CHRISTOPHER R. HILL, NOMINATED TO BE 
               AMBASSADOR TO THE REPUBLIC OF IRAQ

    Ambassador Hill. Thank you very much. I have a statement 
that I would like to----
    The Chairman. Your full statement will be put in the 
record. If you want to just summarize, that is great.
    Ambassador Hill. OK, very good.
    Chairman Kerry, Senator Lugar, members of the committee, it 
is an honor and a privilege to appear before you today as 
President Obama's nominee to be the next American Ambassador to 
Iraq.
    I am deeply grateful to the President and to Secretary 
Clinton for the trust and confidence they have shown in me at 
this crucial juncture in that relationship.
    Mr. Chairman, on February 27, 2009, the President announced 
a policy to end the war in Iraq. The essence of this policy is 
a responsible drawdown of our military forces in Iraq, combined 
with a political, diplomatic, and civilian effort to preserve 
security gains and to lay the foundation for lasting peace and 
prosperity.
    These security gains, indeed, this policy, would not have 
been possible or achievable without the very real 
accomplishments and the very real sacrifice borne by our men 
and women in uniform and by the thousands of civilians who have 
worked alongside them. I am truly honored by the prospect of 
joining this select group of Americans who have served with 
such devotion and courage, and I will always keep in my mind 
and in my heart the fact that over 4,000 of our men and women 
gave their last full measure to this effort. For their memory 
and for our Nation, we must succeed.
    If confirmed, my job would be to lead this political, 
diplomatic, and civilian effort with the objective of 
normalizing our relationship with Iraq based on mutual respect 
and interests. We need to work with the Iraqi Government on a 
broad-based relationship that includes more than just security 
and political cooperation. We need to address the plight of 
refugees, of internally displaced people, and other post-
conflict issues. We need to aim to build with Iraq the type of 
normalized relationship we enjoy with other friends and allies 
around the world.
    This is a mission that will be replete with challenges, 
some unique to Iraq and others that I have seen in other parts 
of the world. It is a mission that remains critical to our 
national interests in the region and beyond, and we really have 
to succeed in this.
    Iraqis have suffered through dictatorship and conflict, and 
they deserve a better day. They have made great strides toward 
national reconciliation. Yet, much more remains to be done. We 
have a responsibility to help, but as President Obama has 
noted, it is ultimately going to be up to them.
    In this context, Mr. Chairman, if I am confirmed, my 
priorities will include ensuring that we provide the Iraqi 
Government with the support it needs for parliamentary 
elections. We need to help them achieve a pattern of peaceful 
and normal political transition. We need to deepen respect for 
human rights for all communities in Iraq, including religious 
minorities, and we need to help them strengthen the rule of 
law.
    My priorities would also include helping the Iraqis achieve 
sustained economic development and to put in place policies 
that help modernize Iraq's infrastructure, develop a legal 
framework that will attract needed foreign investment and for 
dealing with the problem of corruption.
    The President has also called for a robust diplomatic 
effort to normalize Iraq's relations with its six neighbors and 
with the wider region and, more generally, with the 
international community, many of whose members have helped Iraq 
through these difficult times.
    I am very fortunate that if I am confirmed, I will work 
with one of the finest embassy staffs ever put together, and 
for that, I have to thank my predecessors, Ryan Crocker, Zal 
Khalilzad, and John Negroponte. Diplomacy is a team sport, if 
ever there was one, and what we accomplish is often what others 
have started.
    In all of these efforts, I intend to work closely and in 
tandem with General Odierno and with General Petraeus to ensure 
that there is unity of effort in all that we do in Iraq. I have 
known both of these generals from previous Foreign Service 
assignments. Indeed, it has been my great privilege, over the 
course of my career, to have worked with some of the best 
military commanders in this generation on some of our toughest 
challenges: GEN Eric Shinseki in the Balkans, GEN Leon LaPorte 
in Korea, ADM Tim Keating at Pacific Command, to name just a 
few, and I know that maintaining a strong partnership with our 
colleagues in uniform will be key to progress.
    If confirmed as chief of our mission in Iraq, I intend to 
coordinate and focus the contributions being made by all 
participating civilian agencies of the U.S. Government, 
coordinating the work of these civilian agencies, and ensuring 
that they have the security protection they need to do their 
jobs effectively will be essential to the success of these 
policies.
    Mr. Chairman, I would like to mention the importance I 
attach also to ensuring that our taxpayers' funds are spent 
wisely and well.
    Mr. Chairman, as I ask the Senate's support to take up the 
challenge of implementing the President's policy, I am mindful 
of the lessons that I have learned over the course of my 3 
decades in public service--from working on microcredit as a 
Peace Corps volunteer in Cameroon in the 1970s, to witnessing 
and supporting the struggle for political freedom in Eastern 
Europe in the 1980s, to being a part of the negotiating effort 
to end bloodshed in the Balkans in the 1990s, and most recently 
to working with like-minded countries to try to get North Korea 
to give up its nuclear ambitions.
    For each of these assignments, I made it a matter of course 
to consult the best experts and the thickest of briefing books, 
but I have found that the most important preparation for these 
overseas assignments was always to retain a sense of humility 
and determination in the face of the complexities that are 
certain to await me on arrival. If confirmed, I intend to 
approach the mission ahead with that same sense of humility and 
determination.
    So thank you very much, and I would be most pleased to take 
your questions.
    [The prepared statement of Ambassador Hill follows:]

    Prepared Statement of Hon. Christopher R. Hill, Nominated To Be 
                   Ambassador to the Republic of Iraq

    Chairman Kerry, Senator Lugar, members of the committee, it is an 
honor and a privilege to appear before you today as President Obama's 
nominee to be the next American Ambassador to Iraq.
    I am deeply grateful to the President and to Secretary Clinton for 
the trust and confidence they have shown in me at this crucial juncture 
in our relations with Iraq.
    Mr. Chairman, on February 27, 2009, the President announced a 
policy to bring the long conflict in Iraq to an end. The essence of 
this policy is a responsible drawdown of our military forces in Iraq, 
combined with a strong political, diplomatic, and civilian effort to 
preserve hard-fought security gains and to strengthen the foundation 
for lasting peace and security.
    Our Nation owes a debt of gratitude to our men and women in uniform 
and to the thousands of civilians whose sacrifices and accomplishments 
have brought us to the point where a responsible drawdown is possible. 
I am honored by the prospect of joining this select group of Americans 
who have served their country in Iraq with such devotion and courage. I 
will keep in my mind and heart always the ultimate sacrifice paid by 
the more than 4,000 of our men and women.
    If confirmed, my job would be to lead the political, diplomatic, 
and civilian effort necessary to make our military drawdown a success, 
with the objective of normalizing our relationship with Iraq based on 
mutual respect and interests. As the President said, we seek an Iraq 
that is sovereign, stable, and self-reliant; committed to just, 
representative, and accountable governance; and integrated into the 
global economy; an Iraq that denies haven or support for terrorist or 
extremist groups, and contributes to regional peace and security. The 
Iraqis seek the same for their country.
    To do this, we will need to advance a strong, cooperative bilateral 
relationship between the United States and Iraq, as envisioned in the 
United States-Iraq Strategic Framework Agreement, that includes not 
just security and political cooperation, but also cooperation to assist 
and resettle refugees and the displaced, educational exchanges, 
cooperation on trade and investment, telecommunications, energy, and 
health and environmental protection.
    We will aim to build with Iraq the type of normalized relationship 
we enjoy with other friends and allies around the world. This is a 
mission that will be replete with challenges, some unique to Iraq, but 
it is a mission that remains critical to our national interest in the 
region and beyond.
    The Iraqi Government and people have made great sacrifices and 
great strides toward reconciliation, yet much more remains to be done. 
We can help, but as President Obama has noted, it is ultimately up to 
the people and Government of Iraq to take up the task of securing the 
gains made and building on them their nation. Iraq's long-term success 
will--and must--depend on the decisions that only the people and 
Government of Iraq can make. Our responsibility is to support and 
assist--and, where we can be helpful, act as an honest broker--not to 
make these decisions on behalf of the Iraqis.
    In this context, Mr. Chairman, if I am confirmed, my priorities 
will include ensuring that we provide the Iraqi Government with the 
support it needs to conduct successful parliamentary elections; achieve 
a pattern of peaceful and normal political transition; deepening 
respect for human rights of all communities, including religious 
minorities; and strengthen the rule of law.
    The majority of Iraqis have embraced the electoral process as the 
best means for peaceful political change. The provincial elections in 
January 2009 saw many who felt previously excluded turn out in large 
numbers to cast ballots. The result was the election of provincial 
governments that more truly reflect the wishes of the Iraqi people. 
National parliamentary elections are scheduled for the end of 2009 or 
early 2010. These elections will be conducted by the Iraqis themselves, 
but we are prepared to provide valuable support through the work of 
institutions like the National Democratic Institute (NDI), the 
International Republican Institute (IRI), the United Nations, and other 
international partners which provide technical assistance, expert 
advice, and observer missions.
    The same is true of economic development. The responsibility for 
modernizing Iraq's infrastructure, for developing a legal framework 
that will attract needed foreign investment, for ending corruption--
these challenges should be addressed in the first instance by a 
sovereign Iraq. If confirmed, I will also focus on capacity-building 
efforts in Baghdad and the provinces that help Iraqi decisionmakers 
efficiently and effectively design and implement policy, and use Iraq's 
resources in a transparent and fair manner to improve the lives of 
their people.
    The President also called for a robust diplomatic effort to 
normalize Iraq's relations with its six neighbors and the wider region. 
My objective, Mr. Chairman, will be to work with the Government of Iraq 
to help create the diplomatic conditions where Iraq will emerge as a 
partner of the United States that is committed to regional peace and 
security.
    In all of these efforts, I intend to work closely and in tandem 
with General Odierno and General Petraeus to ensure that there is unity 
of effort in all that we do in Iraq. I have worked with some of the 
best military commanders of this generation on some of our toughest 
challenges--GEN Eric Shinseki in the Balkans, GEN Leon LaPorte in 
Korea, ADM Tim Keating at PACOM, to name just a few--and I know that 
maintaining a strong partnership with our colleagues in uniform will be 
key to progress in Iraq.
    If confirmed as Chief of our Mission in Iraq, I intend to 
coordinate and focus the contributions being made by all participating 
civilian agencies of the U.S. Government, including USAID, the 
Department of Justice, the Department of Treasury, the Department of 
Agriculture, the Department of Commerce, the Department of Homeland 
Security, the Department of Health and Human Services, the Department 
of Transportation, and the Department of Energy. Coordinating the work 
of each
of these civilian agencies--and ensuring they have the security 
protection they
need to do their jobs effectively--will be essential to the success of 
the President's policies.
    We must harness the human and other resources available to us and 
use what Secretary Clinton has termed ``smart power'' to address 
priority problems in the most effective way possible. And in this 
respect I take very seriously my responsibilities to ensure that our 
taxpayers' funds are spent wisely and well. Thus, one of the first 
tasks I would undertake, if confirmed, would be to review our current 
resources, our personnel levels, and the way we do business to ensure 
that we are operating at full efficiency and husbanding precious 
resources, and to move us toward a more normal footprint and posture in 
Iraq.
    The President has charted a course for responsibly ending the war 
in Iraq and normalizing our mission there.
    Mr. Chairman, as I ask the Senate's support to take up that 
challenge, I am mindful of the lessons that I have learned over the 
course of my three decades in public service--from working on 
microcredit as a Peace Corps Volunteer in Cameroon in the 1970s; to 
witnessing the struggle for political freedom in Eastern Europe in the 
1980s; to being a part of the negotiating effort to end bloodshed in 
the Balkans in the 1990s; and most recently to working with like-minded 
countries to try to get North Korea to give up its nuclear ambitions.
    For each of these assignments, I made it a matter of course to 
dutifully consult the smartest experts and the thickest briefing books. 
But I have found that the most important preparation was to retain a 
sense of humility and determination in the face of the complexities 
that are certain to await me on arrival.
    If confirmed, I intend to approach the mission ahead with that same 
sense of humility and determination.
    Thank you. I would be pleased to take your questions.

    The Chairman. Thanks, Mr. Ambassador. We appreciate it.
    Let me just begin by going straight to some of the 
questions that have been raised with respect to this. Share 
with the committee, if you would, how you believe or how in 
reality the experience that you had in Bosnia and the Balkans, 
in fact, might prepare you for and, in fact, give you valuable 
experience with respect to what we see in Iraq today.
    Ambassador Hill. Well, thank you.
    I think in many respects, Iraq is unique, but the problems 
that Iraq faces are not unique. We have seen these problems 
elsewhere, and I did see them in the Balkans.
    For example, Mr. Chairman, you spoke of the problems along 
the Kurdish regional government boundary and the disputes of 
those territories. I saw a lot of these types of problems in 
Bosnia dealing with the Bosniaks and the Serb entity there. I 
also saw them in dealing with how to manage some of the 
internal issues, some of the internal communities that were in 
Kosovo, the Serb communities there and the Albanian 
communities. So these are very familiar issues.
    Unfortunately, with these issues, there is no sort of macro 
approach. There is no sort of wholesale way to deal with them. 
You have to get to them on a very local level and deal with 
them and understand the concerns of each community, and you try 
to put yourself in the shoes of these communities and try to be 
helpful.
    As I said earlier, I think many of these issues are issues 
the Iraqis are going to have to take up and resolve, but I 
think we have--and I would like to think that I have, in 
particular--some experience that I can bring to bear on dealing 
with some of these internal issues.
    The problem of post-conflict, the problem of standing up 
institutions is absolutely essential. You know, the problems of 
corruption in Iraq are often a function of the problems of weak 
institutions and the failure to develop accountability, these 
sorts of things.
    I remember very well dealing with these in Albania. When we 
came into Albania, when we opened up our Embassy in 1991, it 
had been closed since 1946. I was the first permanently 
assigned diplomat there. We brought in experts, interagency 
people, people from different U.S. Government agencies, to deal 
with trying to help build the capacities of these ministries.
    So I think a lot of what we need to do on the civilian side 
in Iraq is to build up the capacities, make sure Finance 
Ministries are making the right--are looking at things in the 
right way. To make sure that some of the civilian agencies that 
deal with law and order, for example, police training--this was 
an enormous issue in Kosovo. So I am very familiar with those 
issues.
    And finally, I think if Iraq is going to be successful, it 
is going to be successful because it has good relations with 
its neighbors, but also good relations within the broader 
international field. I think the work I did with the contact 
group in Bosnia and in Kosovo that is working with other 
countries to try to help Bosnia and Kosovo, but also in the 
six-party talks, getting different countries of very different 
points of view around the same table to try to achieve the same 
ends is also going to be very relevant to anything I do in 
Iraq.
    The Chairman. Do you feel that that six-party talk 
experience has particular similarities to any of the components 
of what you are facing in Iraq?
    Ambassador Hill. In this case, these were neighbors of 
North Korea, all of whom had a different history with the 
Korean Peninsula. And so while Americans may come with a short 
history, the neighbors come with a long history. So you have to 
work these issues through.
    With respect to Iraq, it is obviously a different mission. 
It is a different goal that we are trying to accomplish, but I 
think, clearly, we need to, I think, make sure that Iraq has 
the opportunity to have normal relations with these countries, 
but also make sure that these countries respect Iraqi 
sovereignty. So dealing multilaterally to try to make sure that 
people understand our position very clearly on this, I think 
there are a lot of similarities.
    The Chairman. Share with us your sense of the state of play 
in Iraq now post-election in this transitional moment. How do 
you see it?
    Ambassador Hill. Well, I think there has clearly been 
enormous progress in Iraq, but I think some real challenges 
remain. The recent provincial elections were a very good sign 
that people are prepared to come to the ballot box to deal with 
their problems, and some of the results of the elections 
suggested that people really wanted to see some improvements. 
One of the issues that people were clearly concerned about, we 
know from various exit polling, is corruption and also getting 
economic development going.
    I would say another key sign was the fact that the Sunnis 
began to participate.
    First, as we move to the parliamentary elections, these 
will be very key elections, indeed, during this period of our 
troop drawdown. What we need to make sure is that these 
elections are perceived by the Iraqi people, and more broadly, 
as successful elections. So one of the first issues that I have 
to deal with is to make sure the political process is going 
forward.
    Second, I think the issues that you raised about the 
internal boundaries within Iraq and really the relationship of 
the center to the regions, in particular, the relationship of 
Baghdad to the region in the north with the Kurds, the Kurdish 
regional government--that has to be dealt with. There have been 
some difficult problems there. You mentioned one in Kirkuk. We 
cannot allow a problem in one area to endanger the rest of the 
issues, and we have to be really on top of this. I know that 
Ambassador Crocker spent a great deal of his time monitoring 
these issues and being involved where necessary, and I see 
these internal security issues of that kind to be very 
important and ones that I need to deal with and probably deal 
with very quickly.
    The third issue is the issue of economic development. In 
particular, the issue of the passage of the hydrocarbons law. 
This is a very complex matter. When you hear about the 
hydrocarbons law, you think, oh, this must be about revenue-
sharing. Actually it goes much deeper than the issue of 
revenue-sharing. It is a fundamental question about what type 
of economy Iraq will be built on. The elements of it have been 
discussed for some time, but they have not put it together yet. 
I think if that hydrocarbon law can be put together, if there 
can be Iraqi consensus on that, I think that will be an 
enormously good sign for Iraq's future.
    And the fourth issue that I attach priority to is something 
that you discussed in your statement, Mr. Chairman, that is the 
issue of Iraq's neighbors and makingsure that Iraq's neighbors 
understand what we are doing and what we are not doing. That 
is, we are looking to help the Iraqis stand up a stable, 
secure, and sovereign country. And these neighbors, it is in 
their interest to try to engage with a stable, secure, and 
sovereign nation and to try to get on with dealing with the 
process of calming down that region.
    The Chairman. Thank you.
    Senator Lugar.
    Senator Lugar. Ambassador Hill, I conferred yesterday with 
our colleague, Senator Sam Brownback of Kansas. He is not a 
member of our committee. He is not present today, but he has 
asked me to raise with you issues that he believes are very 
important.
    And as background for this, I cite an article in the 
National Journal Online of March 23, 2009, by Kirk Victor in 
which he says: ``President Obama's nomination of Christopher 
Hill to be ambassador to Iraq has prompted fierce criticism 
from a handful of senior Republican Senators in what is likely 
a prelude to a bruising battle on the Senate floor. Critics 
including Senator Sam Brownback charge that Hill, a career 
diplomat, misled Congress in testimony last year when he was 
handling the six-party talks dealing with North Korean nuclear 
disarmament.
    ``Brownback charges that Hill failed to follow through on 
his promise to confront North Korea on its human rights record. 
The Kansas Republican, joined by four other GOP Senators--
Christopher Bond of Missouri, John Ensign of Nevada, James 
Inhofe of Oklahoma, and Jon Kyl of Arizona--recently urged the 
President to withdraw the nomination not only because of what 
they see as Hill's misleading testimony but also because of his 
inexperience in dealing with Iraq.
    ``Obama and Senate Democratic leaders counter that as a 
seasoned diplomat Hill is well-suited. That is, Hill is well-
suited . . . he has a key endorsement from Senator Richard 
Lugar of Indiana.''
    But ``Brownback adamantly disagrees with Lugar. Last year, 
the Kansan even held up President Bush's nominee to South Korea 
until Hill agreed to take steps to make North Korea's human 
rights record part of the negotiations. But the Senator says 
Hill went back on his word. In an interview with the National 
Journal last week, Brownback discussed his determination to do 
everything he can to kill the nomination.''
    Edited excerpts follow of Brownback. ``We are going to 
fight hard against Chris. I met with him on March 18 in my 
office, and he did not allay my concerns. When he was 
conducting six-party talks, I asked him to involve the Special 
Envoy for human rights. He didn't want to do it. So I held up 
an ambassadorial nominee to South Korea. The State Department 
really wanted that ambassador.
    ``Former Senator John Warner brokered a deal in the Armed 
Services Committee where Chris Hill was testifying and Warner 
had me ask questions. One of them was, `Will you invite the 
Special Envoy for human rights to the six-party talks?' He said 
yes, he would. That didn't happen. On his word of doing that, 
in front of open committee, I lifted my hold on the South Korea 
Ambassador. So he misled me.'' And so it goes.
    Now, let me just say, Ambassador Hill, you have tried in 
your opening responses to the chairman's questions to talk 
about the experience with regard to diplomacy and Iraq, and I 
have attempted in my opening comments to indicate what I saw to 
be regional implications of your forthcoming post, in addition 
to the shoring up and strengthening of the Iraqi Government.
    But for this record, would you respond to Senator Brownback 
and to others that I have cited personally and from this quote 
who have raised serious questions that need to be addressed as 
a part of our moving this nomination forward?
    Ambassador Hill. Senator, I would be happy to do so.
    First of all, I want to make very clear that I very much 
respect Senator Brownback's concern about human rights. These 
are concerns that are deeply felt, and they are well placed. I 
have said on a number of occasions--and I will say it again 
here--that the North Korean human rights record is one of the 
worst in the world. There is no question it is one of the worst 
in the world, and I have had those conversations with Senator 
Brownback.
    Now, with respect to the specific issues that he raised, or 
were raised in the Armed Services Committee, I would like to 
make a couple of points.
    What I agreed to do was that as we were going through the 
phase two of the disablement process and verification of the 
North Korean nuclear declaration, we anticipated moving on to 
phase three, or a next phase, if you look in the transcript. 
And what I told Senator Brownback we would do in that next 
phase was to--the next phase was to include bilateral 
normalization talks with the North Koreans.
    Now, of course, we were not ever going to normalize with 
North Korea until it had done away with all of its nuclear 
materials and nuclear ambitions. However, the plan was to sit 
down with the North Koreans in phase three for talks aimed at 
normalization.
    I told Senator Brownback that when we got to that stage, I 
would be prepared to support--and I emphasized I would be 
prepared to support--because I did not make the decisions. (the 
decisions were made by Secretary Rice and an interagency 
group), but I would be prepared to support the creation of a 
human rights track within the normalization talks.
    What did I have in mind for a human rights track? I thought 
we could, in this track, acquaint the North Koreans with the 
fact that if their aspiration was to join the international 
community, which was the whole concept of the six-party talks, 
they would have to do something about their human rights 
record. Specifically, we would look at whether we could, for 
example, give them lists of prisoners of conscience, of whom 
there are many in North Korea. We would also look to see 
whether we could stand up some activities, for example, help 
them with their criminal procedures code or things like that, 
work with other countries on this. So I told Senator Brownback 
that we would create, in the context of this bilateral 
normalization working group, a human rights track.
    The second point concerned his concern that the human 
rights envoy who was envoy from 2005 to 2009, should be made a 
part of the six parties. I told Senator Brownback that I would 
support--indeed, that I would invite the Mr. Leftowitz to any 
negotiations with the North Koreans that did not deal with 
nuclear matters, that is, anything beyond nuclear, he would be 
a participant in. In fact, my statement is addressed in a press 
release that Senator Brownback issued on July 31, 2008.
    The problem, Senator Lugar, was that we were not able to 
get beyond phase two. Although the North Koreans did issue a 
nuclear declaration, we did not get adequate verification 
measures to verify the entire declaration, so we were not able 
to get beyond phase two. We got some verification measures; we 
got their agreement to allow people to visit sites. We got 
their agreement to allow people to visit sites that are not 
already listed on their declaration. We got them to agree to 
give us documentation on how the reactor operated. That is, we 
got daily production records from 1986 so that we could track 
the production of the reactor, and that would help verify 
whether, indeed, they had produced 30 kilos versus 35.
    So we got some verification, but what we were seeking was a 
fuller international standard verification of the type that one 
would have in the context of a country that has completely 
denuclearized and a verification that would be familiar to 
anyone who has dealt with the IAEA.
    We were not able to get that, and we were not able to 
complete phase two, and therefore, we never got on to having 
these bilateral talks.
    Senator Lugar. Thank you.
    The Chairman. Thank you, Ambassador.
    Senator Casey.
    Senator Casey. First of all, I want to thank you for your 
willingness to serve again. I think you are going to do a great 
job, and I think we should confirm you. I know it is not going 
to be an easy job, and I know that the assignments you have had 
over the years have never been easy jobs. You are used to 
taking on difficult challenges.
    I think it is important to point out in this debate about 
your nomination--there is some debate and we should not shy 
away from confronting that debate--that you have had a 
commitment as a career Foreign Service officer. That is 
important. You did not arrive at these appointments based upon 
campaigns or sometimes the way decisions are made in 
Washington. You have had broad experience in different parts of 
the world, whether it was in Asia or in Europe.
    And those who might want to contest or debate or dispute 
the positions that you were advocating for with regard to North 
Korea should take their fight to the previous administration. 
You worked for a President. You worked with and for a Secretary 
of State, and that is where the debate should be directed.
    I wanted to go through a couple of questions principally 
based upon the role that you will play. Obviously, you are 
coming into a country that has been torn apart, a country that 
has been the scene of combat and misery and division over the 
last couple of years. But our country is going to be 
redeploying our forces out of Iraq, and that is good news. But 
I know it will not be easy to do that effectively.
    So I wanted to get your sense of what role you play in this 
new time period, and I know that as Ambassador Crocker was 
getting ready to leave, he outlined three key challenges in the 
coming year. One he cited was the holding of national and 
provincial elections. Two was the Iraqi division of 
responsibility between the federal and regional governments, 
and three was maintaining and improving the security situation. 
Obviously, all of those are critically important, but I just 
wanted to get your sense: A) of the challenge before you and B) 
what role you can play in this rather unique security situation 
in Iraq.
    Ambassador Hill. Thank you very much, Senator. I think we 
are in a really crucial phase because I think the task of 
withdrawing forces--of drawing down forces--is always or tends 
to be more difficult than the task of flowing in forces. When 
you come in, when forces come in, they bring everything with 
them. What we need to encourage, as our forces leave, is for 
them to take with them a sense of a mission accomplished, and 
that is very important. However, as they leave we want them to 
leave behind a sense of security within the country as well.
    I think we have the capability of getting that done. This 
plan to draw down our forces was something done very carefully 
in conjunction with our commanders on the ground and, of 
course, with Ambassador Crocker. So it is a tough period.
    The first thing I will do is work very closely with Ray 
Odierno, our general on the ground. He and I know each other; 
we have traveled around Asia together a couple of years ago. In 
fact, I have already had a very good talk with him in my 
office. We intend to really work very, very closely. So one 
team, one mission there.
    The second thing is that we need to make sure that we 
manage this pivot from military to civilian, meaning that these 
issues that Ambassador Crocker laid out are absolutely priority 
issues. That is, we need to make sure these national elections 
go well. We need to make sure that we assist and support 
efforts to work out the division between the power of the 
center and the rights of the regions. We need to work out some 
of these to stand with the Iraqis as they work out internal 
issues, namely with these internal border issues, but also, as 
I mentioned earlier, with the hydrocarbons law. I really do 
believe that hydrocarbons law is a law about hydrocarbons the 
way Moby Dick is a story about a whale. There is a lot more 
going on in that law, and it really will signal what kind of 
Iraq there is in the future, and it will tell us a lot about 
what kind of economy they will have, but also what kind of 
political agreements they are going to reach. So we really need 
to stay on top of that.
    Finally, I think we cannot assume that the security 
situation will always be as good as it is today. There will be 
problems, and we need to remain vigilant.
    So what I would like to do, if I am confirmed, is to get 
out there very, very quickly; I would really like to do that 
within a day, if that is logistically possible, because we have 
not had an ambassador there since early February.
    Then I would like to have a good look at what our assets 
are then come back here and consult with Washington and, in 
particular, consult with members of this committee. As you 
know, we have some 1,000 people in that Embassy now, but we 
also have 400 people out in the provincial reconstruction 
Teams, the PRTs and I think a lot of what we have succeeded in 
doing in Iraq has been through these PRTs. So I would like to 
get on out there and see what they are doing.
    Senator Casey. Well, I am running out of time. I just will 
put one commercial in for a subcommittee hearing we are having 
at the end of the month on Iraqi refugees on March 31. We will 
talk to you about that and give you whatever feedback we get 
from that hearing.
    But I am going to be supporting you, as so many others are, 
and we wish you not only best of luck on your confirmation, but 
godspeed as you head across the ocean to do the work that you 
have been given the opportunity to do at such an important time 
in the history of our country but especially with regard to how 
we transition in Iraq. Thanks very much.
    Ambassador Hill. Thank you. If I could just add with regard 
to the refugees, these are enormous numbers that we are dealing 
with in the refugee and internally displaced community, and it 
is very appropriate that we focus very hard on that and see 
what we are doing and also see what the Iraqi government is 
doing.
    I should also add that really the first thing I am going to 
do when I arrive is say hello to my son who has been out there 
since September.
    Senator Casey. Thank you.
    The Chairman. Thank you very much.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, and Mr. 
Ambassador, welcome. I thank you for your many years of 
service.
    I know that previous panel members have asked questions 
about experience and other kinds of things that have been 
brought up, some of the issues in North Korea. So I want to 
focus on the job when you get there.
    I know that contractor abuse, as you know, has been a major 
issue there, or at least the discussion of it. And I just want 
to ask you a question as to how you envision eliminating, 
minimizing that and, at the same time, addressing the security 
needs of the State Department there on the ground.
    Ambassador Hill. Thank you.
    It is an enormous mission. I mean, currently they have some 
1,400 employees under Chief of Mission authority. That is 
bigger than anything I have seen. I think it is bigger than 
anything we have ever had under Chief of Mission authority. So 
I think it is going to require a real hard look to see whether 
it is right-sized.
    In particular, we have to look at how we are doing with 
contractors. Now, we are going to need some contractors. We are 
going to need contractors to handle our perimeter security. We 
do need contractors to handle the movement of diplomats. We 
need to keep our people safe and a lot of the contractors work 
in the area of security.
    However, there have been some real problems there, and I 
think it behooves us to look very carefully because we cannot 
have more of those problems. We cannot have issues that flare 
up and that cause problems with the Iraqi Government and 
frankly with the Iraqi people. So I will take a real hard look 
at that.
    As you know, there will be new contracts with some of these 
contracting organizations, and as you know, one of them has 
been declared not eligible by the Iraqi Government, but there 
are other contractors who are putting in bids. We have had some 
very talented young people from all over our country who have 
come in on temporary Civil Service contracts and have done 
wonderful work.
    I want to see how that is all working, with the ultimate 
goal of looking to make sure we have the right footprint in 
Iraq. I do not want to make an adjustment with an 8,000-mile 
screwdriver. I want to get out there and have a look and 
continue to see whether it is the right-sized mission.
    Senator Corker. What kind of challenges do you envision 
with the U.S. withdrawals that are going to be taking place? 
Some even in advance, I know, were being discussed, but right 
after the parliamentary elections. What kind of challenges? 
Since I know I will probably run out of time to some degree 
with this, how will that affect, for instance, the operations 
of our PRTs on the ground there?
    Ambassador Hill. Senator, you put your finger on it. I 
think the PRTs have been very important, and we are going to 
lose a number of PRTs as the forces drawdown. So what we need 
to do is see that other PRTs can extend their reach. And what 
makes all of this political, economic work--what makes it all 
possible is the security situation. So, when you are reducing 
your forces, you need to make sure the security remains. We 
need to make sure the police training is going well. As you 
know, the Iraqis will be taking over more of the detainee 
population. That is ongoing. We need to make sure that is a 
smooth process and we are not creating security problems for 
us. So I think the main challenge, as we reduce these forces, 
in the short run is to make sure the security is still there.
    Senator Corker. What kind of resource adjustment do you 
envision? I know that we still need to have a positive impact 
on reconstruction there, and I am just wondering, as we think 
about these troop withdrawals and as we think about the PRT 
adjustments you are talking about, how do you envision us 
continuing to have a positive impact on reconstruction which, 
in essence, is incredibly important as it relates to the 
stability of the country?
    Ambassador Hill. Right. Well, we envision on these PRTs, 
which have been the key way to get out to the Iraqi 
population--we have some 26 now. We are going down to 16, and 
then we are going to go down to 6. So we need to make sure they 
are still able to get to the Iraqi communities and do the job 
they need to do.
    Senator Corker. The math of that would make one wonder, 
though, with that kind of glide path, how we are going to 
continue to have that positive impact. And I might add, since I 
may be running out of time, especially now, as you talk about 
that and explain that to us, I would like for you to balance 
that against the fact that I think a lot of people believe--and 
I am one of those--that Iraq should be spending more of their 
own money on reconstruction. So if you will, walk us through 
the declining PRTs, the way we are going to have a continuing 
positive impact on reconstruction, but at the same time, 
balance that against the fact that, in essence, Iraq needs to 
be playing a much larger role in their own reconstruction 
financially and in other ways.
    Ambassador Hill. Well, Senator, with regard to 
reconstruction, over the course of 6 years the U.S. has spent 
some $50 billion on this. We see reconstruction in the future 
as something the Iraqis will take over. When you look at some 
of what we envision in terms of assistance in the coming years, 
we are looking more at capacity-building, that is, working with 
the ministries to make sure they are stood up and getting the 
job done.
    We do not anticipate having to build things for the Iraqis. 
That period is coming to an end, and that is when the Iraqi oil 
revenues and their own capacities have increased such that they 
can generate their own funds for that.
    So I think we are at a pivot point where reconstruction 
begins to come to an end and then we will do more in terms of 
the technical assistance and making sure they are making the 
right policy moves.
    A key element, though, of our continued effort with them is 
to make sure that we are getting the police training module 
done well because that, again, relates to security, and without 
security, it is very difficult to make progress. So police 
training is something that continues. What we need to do on the 
civilian side is to make sure that as the military leaves, that 
we are able to take over a role that the military has had in 
the past. So I would say capacities in Iraqi building and 
police training are two very key elements of what we are doing.
    Senator Corker. Thank you very much. Thank you.
    The Chairman. Thanks, Senator Corker.
    Senator Dodd.
    Senator Dodd. Well, Mr. Chairman--and thank you, Mr. 
Ambassador. Welcome. I apologize I was not here for the opening 
comments, but I will ask consent, Mr. Chairman, that my full 
statement regarding Ambassador Hill be put in the record.
    The Chairman. Without objection.
    [The prepared statement of Senator Dodd follows:]

             Prepared Statement of Hon. Christopher Dodd, 
                     U.S. Senator From Connecticut

    Mr. Chairman, thank you for holding this important hearing. 
Ambassador Hill, I welcome you before this committee. I want to thank 
you for your tremendous professionalism and discipline, and the keen 
analytical skills you brought to the issue of North Korea. Iraq is a 
very different challenge, but an equally important and serious one. And 
you come to this challenge well prepared. So I thank you for your 
service to this country, and I am pleased that the President has 
nominated such a skilled and disciplined diplomat for the important 
post of Ambassador to Iraq.
    Let me also take a moment to express my deep gratitude for the 
thousands of Americans who are serving in uniform in Iraq, and the 
civilians in the Embassy you will soon lead, as we speak.
    It seems to me, Ambassador Hill, that we need to answer fundamental 
questions about our policy in Iraq. What is the administration's 
strategic plan for Iraq? How does the administration plan to implement 
that strategy? And how will you balance the competing factors--
withdrawing American forces as quickly as possible without reversing 
hard-fought progress?
    The purpose of the surge was to provide breathing space for Iraqis 
to engage in political reconciliation, and to jump-start the political 
process in Iraq so that the government could begin addressing the needs 
of its people, and rely less on American security forces while doing 
so. The fact that violence has reduced significantly is a positive 
sign. It is likely due to several factors.
    Perhaps the most important question then is, Have the fundamentals 
in Iraq changed? Have the fundamental roadblocks to political 
reconciliation been removed? How real is the progress? How fragile?
    And how can you, if confirmed as Ambassador to Iraq, work with your 
counterparts toward reconciliation, and build an inclusive and 
responsive Iraqi Government that meets the needs of its people?
    Until we have answers to these questions, I'm afraid we'll continue 
to roam in a haze of tactics. What we need is a comprehensive strategy 
that will enable us to quickly withdraw American forces in the most 
responsible way possible.
    I would hope that the administration's Iraq strategy would put the 
Iraqi people front and center. Nothing will do more to advance the 
interests of the United States. And this should go beyond just 
reconstruction money and PRTs. We need to more vigorously and 
dynamically engage with the Iraqi Government to help them build the 
capacity and the skills to deliver for the needs of their own people.
    Ambassador Hill, these are daunting tasks, made no less easy by the 
blunders and hubris of the last administration. I hope that you can 
bring some clarity and fresh thinking to these issues and I look 
forward to your testimony today. I have no doubt that you are up to 
this task.

    Senator Dodd. And let me just briefly say I think you did a 
magnificent job in North Korea. I think we are fortunate to 
have somebody with your capacity and abilities willing to take 
on this responsibility. So thank you for doing so.
    Let me ask you, if I can, about these ''Awakening 
Councils.`` One of the strategies, or tactics rather, that the 
administration--or previous administration engaged in--was, of 
course, to fund and support various groups out there, including 
the 90,000 Sunni groups, many of whom were part of the 
insurgency.
    Mr. Hill. Yes.
    Senator Dodd. And bringing them in. And it worked very, 
very well. It was very successful, obviously, in achieving some 
of the results we're seeing today.
    The obvious question that others have raised is, at some 
point we're going to have to stop funding these Awakening 
Councils, and the danger, obviously, that these very groups 
that now are part of the solution, could become part of the 
problem. And I wonder if you might address that issue--not just 
to this large group, the 90,000 as part of the Sunni group--but 
others as well, as part of the ultimate political 
reconciliation effort that we're obviously trying to achieve. 
How much of a risk does that pose?
    Tom Friedman and others have raised this point--it's not an 
original thought I'm sharing with you, here, but it's obviously 
a concern.
    Mr. Hill. Well, Senator, I think what happened in Anbar 
province was, in many respects, one of the key developments 
that has enabled the situation to get better. And clearly the 
creation of the Sons of Iraq--there's almost some 94,000 people 
have been really, I think, very key. I think we, wisely, took 
on the task and began to make the payroll of this, and I think 
it clearly contributed to security. Essentially, they were on 
our side.
    What we have done with the Iraqi Government is to look to 
see how they can take over this function. And they have been 
doing so, in terms of taking over the payments that these Sons 
of Iraq receive, and most importantly--and I think very 
importantly for the longer run--incorporating them into the 
Iraqi forces, and in Iraqi security organizations.
    We need to make sure this is really continuing, because I 
think as your question suggests, we've got to get this right. 
We can't have a situation where these people flip back in 
another mode.
    So, so far we have had, I think real--an understanding from 
the Iraqi Government of the importance that this has had on the 
security situation, and so--I think so far so good, but I think 
we need to keep close tabs on it.
    Senator Dodd. Thank you for that, and again, it is 
obviously--the return to sectarian violence is the great fear, 
here, and if you end up short-changing the funding, the very 
organizations that have been a part of the solution, here, 
become part of an ongoing problem.
    Mr. Hill. Yes.
    Senator Dodd. So, I'd be very interested, Mr. Chairman, of 
being--having the committee kept abreast of how that's working, 
because I think it poses some major risks to the ultimate 
success of the political reconciliation.
    Mr. Hill. I think some of this reflects the fruits of our 
efforts with Iraqi ministries, to get their finances together, 
and to help the Iraqis stand up a budget that can really handle 
their own security issues. So, I think the fact that they took 
over the financing of this, and that it's been going pretty 
well is a testimony, frankly, to some of the people who worked 
with them on these capacity issues.
    I think the Iraqis understand the importance of it, but 
that's not enough. You have to have people who know how to get 
the payments out to the people in the field, and I think it's 
been working.
    The real issue is that you can't just have people sitting 
there, receiving a monthly allotment for sitting there, you 
have to be doing something with them. You have to bring them 
into the Iraqi forces, you know, you're dealing with all kinds 
of different individuals out there in Anbar so, you know, it's 
going to take some time, I think, to bring them into the Iraqi 
forces.
    Ultimately, we don't want paramilitaries just out there 
receiving payments, cash payments, we want them in an 
institution.
    So, again, it goes to capacity-building and also to 
institution-building.
    Senator Dodd. Let me just ask you, quickly, as well--we, I 
think it's been fairly well stated what the strategic mission 
of the United States is, the President's commitment, obviously, 
to a patient but speedy withdrawal of U.S. forces, and 
obviously that will be a major challenge for you. Tell me about 
our neighbors in the region, there, what is their--how are they 
reacting to this, and what is their--what strategic plans do 
Iraq's neighbors have? Are they conforming to our own? Are they 
hostile to our own, or somewhere in between? How is that 
shaping up?
    Mr. Hill. Well, I think there is a growing interest in the 
region to normalize with Iraq. And I think there's a growing 
realization that the Iraqi Government is acting as a sovereign 
government, and is not something installed by us, but rather is 
something that is installed by the Iraqi people.
    So, I think things are improved there. Frankly, I think 
Prime Minister Maliki--who has as you know, been taking some 
tough decisions, and decisions that were of concern to people 
at various times, but he stuck with them. For example, his 
decision to send some forces down to Basra, I think really got 
people's attention in the region.
    Now, I think the real problem in the region for Iraq 
remains its ancient neighbor, Iran. Obviously, we would like 
that Iraq, in the long run, has a good relationship with its 
neighbor, Iran, but we believe--and the Iraqis definitely 
believe--that Iran needs to respect Iraqi sovereignty and needs 
to respect their internal affairs. And I know there are 
concerns about that in Iraq, and I think that's something that 
we need to be very much on top of, and I intend to do so.
    Senator Dodd. Thank you very much.
    Mr. Chairman, thank you.
    By the way, just--I should say, as well, and we don't say 
it often enough--but the civilians who work in Iraq and our 
military people who are there, that have been there--there's 
been debate up here for a long time over policy questions, but 
I think all of us would want you to reflect, I think, our 
strong appreciation, and deep appreciation for the people who 
have served under very, very difficult circumstances. And 
please convey that, as you assume this responsibility.
    Mr. Hill. If confirmed, I will definitely convey that. 
Thank you.
    Senator Dodd. Thank you, sir.
    The Chairman. Thank you, Senator Dodd.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Welcome, Ambassador Hill. Thank you for your visit to my 
office last week, where I took the occasion to ask you what I 
considered to be the only question I really needed an answer 
to, and you gave me that answer. I want to repeat the question 
for the record today, and I hope the answer is somewhat 
similar. And the question was this. I am a huge admirer of Ryan 
Crocker, and I think what David Petraeus and Ryan Crocker did 
in Iraq, through the surge, through the Provincial 
Reconstruction Teams, through the stabilization of relations 
with the Iraqi Government was nothing short of marvelous, and 
they deserve our praise.
    And the question I asked you, which I'll ask you again here 
today is, given their success, how do you see your role 
replacing Ambassador Crocker in Iraq?
    Mr. Hill. Senator, I told you then and I'll tell you now, I 
just don't want to screw it up.
    Senator Isakson. That's just what I wanted to hear. 
[Laughter.]
    I think that was a very appropriate, candid answer, because 
in your opening statement you made reference to respecting the 
sacrifice of over 4,000 Americans who died so Iraq could have a 
chance to be free. Regardless of the politics over how we got 
in, how we get out, what we did and everything else--those two 
men did a marvelous job leading our troops under tremendous 
pressure and I think as we withdraw, the State Department has 
an enormous burden on its shoulders to not screw it up.
    I want to follow up on what Senator Corker was referring 
to, and Senator Casey with regard to refugees. I think I'm 
right on this--the microloan program is funded through the 
State Department's budget, am I not correct?
    Mr. Hill. Yes, that's correct.
    Senator Isakson. When I was in Gazaria in January 2008, as 
the success of the Awakening and the success of the surge had 
began to show, I went out in an MRAP with a Provincial 
Reconstruction Team, which was made up of a rifle squad of 
United States Army, two State Department people, myself and my 
aide. I noticed the commanding officer of the squad, a 
lieutenant, was the one making the loans and signing the 
documents with the bakers and the little automobile repair 
shop, the places that we visited--both of which, by the way, 
were refugees who had come back into Iraq to reopen businesses. 
Obviously, if we're reducing troops, and if the microloan 
program has been as big a success as I think it has been for 
both the refugees and those who remained in Iraq, will you have 
the personnel or will you need additional personnel to carry 
out that function?
    Mr. Hill. I think I have the personnel, and Senator, I want 
to assure you, we're going to carry out that function.
    I think what you saw is something that is really the 
hallmark of our military. I have on my desk a little book--it's 
only about 14 pages or something--it was given to me by a 
lieutenant colonel that I knew when I was in Macedonia and the 
book is called, ``Message to Garcia,'' and it's something that 
the military--that people read in Officer's School and in 
Leavenworth.
    The point of the book is that a guy is told, ``Get this 
message to Garcia,'' who's some sort of bandito on the other 
side of the Cuban Island in the late 19th century. The guy 
salutes, and he goes out there, and he gets the message to 
Garcia, he doesn't say, you know, ``Where are my travel 
orders?'' You know, ``Who's going to do my voucher?'' you know, 
``How am I going to do this? How am I going to do that?'' He 
just salutes and gets the message to Garcia.
    I think what you saw out there was a guy who said, ``Hey, 
these people need some loans, to, you know, put a roof on a 
school, or, you know, get some school books for kids, and I'm 
going to get this done. And I'm not going to, you know, run 
around asking for permission, and you know, seeing if we can, 
you know, set up some, you know, micro-credit--I'm just going 
to get this done.'' And I think that's the kind of mentality--
that is what has really made our military very successful, 
because I'm sure this wasn't done at the four-star level, that 
they did microcredit out there.
    So, I want to make sure we have that same sense in the 
Embassy, and maybe I'll make them all read ``Message to 
Garcia.''
    Senator Isakson. Well, I appreciate that answer.
    One other point on the Sunni Awakening that Senator Dodd 
was referring to. There is no question that our ability to pay 
those people $3 a day was an immeasurable help in having an 
Awakening, and when I was in Gazaria, actually, two young armed 
Sunnis were helping to protect us on the points of this little 
shopping area that we were in. Did you say in your answer that 
the Iraqi Government had begun to assume some of the financial 
responsibility for those payments?
    Mr. Hill. Yes, they have, and my understanding is they've 
assumed all of the financial responsibilities with respect to 
the Sons of Iraq, and it's a crucial mission, and it needs to 
be accomplished. It's essential and I think we need to make 
sure that it's going well.
    Senator Isakson. Well, I want to just echo that. I also 
supported the funding of the microloan program, and some of the 
other investments we made in helping to turn this around, and I 
appreciate your acknowledgement of the importance of that, as 
well as getting the Iraqis to assume more of the financial 
responsibility for the good things that were done to help bring 
about stability in the country, and I appreciate your 
willingness to serve the country.
    Where is your son stationed in Iraq?
    Mr. Hill. He's in Camp Slayer.
    Senator Isakson. And is he in the Army?
    Mr. Hill. He's in the Defense Intelligence Agency. I hope I 
haven't blown his cover. [Laughter.]
    Senator Isakson. I hope I didn't encourage you to blow his 
cover, but please extend to him our thanks for his service.
    Mr. Hill. I will.
    The Chairman. Thank you, Senator Isakson.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    I've spent a lot of time in recent years calling attention 
to the previous administration's sometimes myopic focus on the 
greatest mistake in the fight against al-Qaeda, and that was 
the Iraq war.
    Over many years, that war was a terrible diversion from our 
top national security priority, and what should have remained a 
global fight against a global enemy. The war in Iraq stole our 
resources, personnel, money and attention that could have been 
better spent protecting our national security, and countering 
al-Qaeda and its affiliates in Afghanistan, Pakistan, North 
Africa, the Horn of Africa, and Southeast Asia, among other 
places.
    Thankfully, President Obama has already begun to move this 
country in the right direction. The announcement last month of 
a timeline, the redeployment of our troops is a long overdue 
step in the right direction. And while I have concerns with the 
expected size of the residual force the President intends to 
maintain, there is a clear shift from a predominantly military 
presence, to a predominantly civilian one.
    During this period of transition, we will need a strong, 
qualified ambassador in place to help us ensure that that shift 
occurs as safety and swiftly as possible. We'll need an 
ambassador who knows how to handle challenging and complicated 
diplomatic situations, can work closely with our friends and 
allies, and understands how the bureaucracy works here at home.
    I am please that Ambassador Chris Hill--a career Foreign 
Service officer--has been nominated to this post, and I look 
forward to our discussion today.
    Ambassador, as you know, I've been a long-time proponent of 
redeploying our troops from Iraq, and again, while I'm pleased 
that the President has set a timeline, I'm concerned about this 
residual force. I'm concerned that it could undermine some of 
the positive aspects of redeployment, for example, leading 
Iraqis to question whether we will, ultimately, leave, and by 
preventing us from focusing adequately on the serious national 
security challenges we face around the globe, and I'd like your 
reaction to that.
    Mr. Hill. Well, I think the President's decision was made 
in careful consultation with the commanders in the field, and I 
think what the President is very concerned about is, as we 
reduce forces--and reducing substantial forces in the months 
ahead--we need to be prepared for the bumps in the road that 
could come as we go forward.
    So, I think the President has put together a very prudent 
program in consultation with the commanders in the field. I 
think that once the combat forces are out, and we have some 
approximately 35,000 to 50,000 troops remaining will be a 
function of what the commanders in the field believe necessary.
    But, we're looking--as we get to that level--that these are 
going to be advisory and assistance brigades, largely, rather 
than Brigade Combat Teams, and we'll have to see what the 
situation is then.
    I think it is so important, Senator, that as our troops 
come back from Iraq, they come back with a real sense of a 
mission--not only accomplished--but a mission well done. 
Because our Nation--our Nation, I think--depends on that sense. 
And we need to make sure that this is a success.
    Senator Feingold. What's your assessment of Iran's 
influence and current role in Iraq, and do you think Ambassador 
Crocker's initial conversations with his Iranian counterparts 
were useful? And would you like to revive them? And, if so, 
what would be, sort of, your priorities when you did that?
    Mr. Hill. My understanding is that the Iraqis are concerned 
about Iranian influence in Iraq--we are concerned about Iranian 
influence in Iraq. I think, overall, our approach to Iran is 
now under a policy review. I don't know what the outcome of 
that policy review will be, but if it does include my having 
contacts, and following up on those contacts that Ryan Crocker 
had, I would be most pleased to do that.
    I think Iraq and Iran need a good relationship, and a good 
relationship would be served by Iranian respect for sovereignty 
in Iraq. And if it's concluded that I should speak to the 
Iranians, I would like to make that point, and to hear any 
points that they have to make to me.
    Senator Feingold. Thank you, Ambassador.
    Recent press reports bolster concerns I've heard from 
representatives of the Kurdish regional government that a rise 
in nationalism has the potential to further disrupt the 
already-stalled efforts at national reconciliation, and the 
situation is further complicated by concerns that some in the 
Kurdish region may seek to sideline the central government in 
Baghdad, and negotiate oil contracts in and around Kirkuk.
    We spoke about this in our meeting last week, but given our 
long history with the Kurds and our interest in, more 
generally, in seeking legitimate national reconciliation in 
Iraq, I'd like to hear your thoughts on how concerned we should 
be about the rising tensions, and what the role--what role the 
U.S. Government should play in this situation?
    Mr. Hill. Well, I think all along the border of the Kurdish 
Regional Government the three provinces in the Kurdish regional 
government--there are disputes, there are flat-out land 
disputes and Kirkuk is probably the most difficult of these.
    First of all, the U.N. has been working on this issue and I 
think it's very important to support the U.N. on this, and to 
see if--together with the U.N.--we can work with Baghdad and 
with the Kurds to see if we can find a resolution to this.
    These are, in some cases, just old-fashioned land disputes. 
I've dealt with these sorts of things in the Balkans, you can't 
just wave your hand and say, ``You do this, and you do that,'' 
you have to kind of go through this, and see if you can be 
helpful, and see if they can get this done.
    My understanding is that there are no total deal-breakers 
there; there are ways to address these things.
    With regard to the issue of separate oil contracts, that 
was a process that got underway and it has not happened--
certainly in recent months. I think it does speak to the 
urgency of getting this hydrocarbons law accomplished.
    As I said earlier, I think the hydrocarbons law will speak 
volumes about the future economy of Iraq, but it will also 
speak volumes about the internal political arrangements in 
Iraq.
    Iraq is a sovereign state. It is one that, I think, can 
work through these issues and I will do all I can to help, 
drawing on a lot of experience I have, in the Balkans in 
particular.
    Senator Feingold. Thank you, Ambassador.
    The Chairman. Thank you, Senator Feingold.
    Senator Risch. Mr. Ambassador, thank you for taking time to 
come to my office, I sincerely appreciate that.
    Just briefly, you--and we had a good discussion at that 
point. You brought up--you referred to something here that I 
was interested in, you referred to the fact that you were going 
to continue to use contractors to protect the perimeter. What--
exactly what are you referring to, there?
    Mr. Hill. Well, we have--in protecting the Embassy, we 
have----
    Senator Risch. The Embassy, or the entire Green Zone?
    Mr. Hill. No, just--I'm referring to the Embassy. And, 
Senator, I might say that today is March 25. On March 25, 1999, 
my Embassy in Skopje, Macedonia, was breached by 10,000 
demonstrators who--on this day, March 25, this is the 10th 
anniversary--burned down all of our out-buildings, and sent our 
Embassy staff, we had 50 people in the building at the time, 
down to the basement.
    They broke off our flagpole, which was 16-feet long, and 
used it as a sort of Medieval-style battering ram on the front 
door, and frankly, Senator, we were kind of worried.
    Fortunately, we were able to get help, finally. Even though 
they had knocked down all of these fences--which were poorly 
installed--we had a U.S. military contingent, a Marine Fast 
Team that arrived, and installed razor wire, and kept us 
buttoned up.
    I don't want to do that sort of stuff again, that was in my 
youth. I think we need to make sure that the perimeter of the 
Embassy is properly handled. My understanding is that 
Diplomatic Security has an enormous effort in Iraq, working 
with contractors and supervising contractors very closely and I 
have a lot of confidence in Diplomatic Security on this.
    Senator Risch. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Risch, I appreciate it.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Ambassador, congratulations on your nominations, we look 
forward to supporting you.
    I do have concerns--and our subcommittee, where we handle 
all of the foreign assistance--I am concerned about the 
Inspector General for Iraq Reconstruction's report that said, 
of the $21 billion in the Iraq Relief and Reconstruction Fund, 
roughly $3 to $4 billion has been wasted. And he went on to 
talk about additional millions of dollars of U.S. 
reconstruction funds have been stolen by Iraqi officials, 
stating that there is corruption across the board in Iraq's 
Ministries, high levels of corruption in the Ministry of Oil, 
the Ministry of Trade, and the Ministry of Defense.
    So, the line of questions I want to get a sense from you 
is, No. 1, why do you think our efforts there, in 
reconstruction, got so badly off-track, and if confirmed as an 
Ambassador, what do you consider your responsibilities to be, 
with reference to overseeing the continuing reconstruction 
efforts, and mitigating waste?
    Mr. Hill. First of all, Senator, I mentioned in my opening 
statement that I think when the American taxpayers give you 
money for something, it is essential that we make sure that the 
money is carefully and wisely spent and there can be no room 
for corruption.
    My understanding is that there has been a real effort over 
the years to increase our capacity to monitor spending. We've 
had a number of auditors who were actually in-house, inspectors 
who are located within the Embassy--this is rather unusual, 
because we don't usually have this in other embassies, we have 
auditors who come out from Washington. In this case, we have 
some 35 auditors in this special Iraq inspector general.
    So, I think now we've got a pretty good handle on how the 
money is spent. My concern is to make sure this continues and 
there's no slackening of this. Look, I know that we are into a 
situation now where a lot of the fundamental reconstruction in 
Iraq is coming down, but we have other expenditures if we're 
going to finish the job and make sure our troops are able to 
come out. I know the importance of being able to tell you that 
we are monitoring every penny of this.
    So, what I can do is assure you this is a priority--this is 
a very important priority--and I'll continue to follow this.
    Senator Menendez. Well, I appreciate that.
    Here's our problem. Tomorrow we're going to be marking up 
the budget in the Budget Committee. There are those of us, like 
myself, who are strong advocates for the 150 Account. But the 
reality is, is that it's very hard to go back to New Jersey or 
any part of this country, when we spend, you know, when we had 
$3 or $4 billion that our own inspector general says is wasted.
    So, you know, how we continue--even as we draw down troops 
in Iraq, I don't get the sense that there aren't going to be 
continuing demands for U.S. assistance to Iraq, unless you want 
to tell me that now, in which case we can move onto another----
    Senator Menendez. Yeah, OK.
    Mr. Hill [continuing]. Continuing----
    Senator Menendez. And since there will be, I think it's 
going to be incredibly important--I understand about all of the 
auditors--what the auditors end up doing is telling us what's 
happened.
    Mr. Hill. Yeah.
    Senator Menendez. And what I'm concerned about, is, 
ensuring that what we take place, doing prospectively, is going 
to give us the best results and obviously the use of the 
taxpayers' dollars in a way that we can stand by, those of us 
who advocate for greater foreign assistance, because it's in 
the national security and national interest of the United 
States.
    In that respect, what do you see in regard to dealing with 
the Iraqi Government as it relates to improving elements of 
corruption of these ministries or where our moneys are going 
to, what do you view that as? And what do you see as our role 
in terms of future humanitarian recovery and development 
assistance in Iraq?
    Mr. Hill. First of all, I think--my sense is that a lot of 
the corruption problems in Iraq are the consequence of very 
weak internal controls, and frankly no experience with internal 
controls and very weak institutions. So I think a lot of what 
our efforts, what our assistance efforts today are targeted at, 
are the issue of building capacities within ministries to 
handle money and to money with proper--proper controls.
    I think it is essential to continue these types of programs 
because I think it is part of making Iraq the success that 
allows our troops to leave and to leave with a sense that there 
is success. And I said earlier, I think that's so essential.
    So Senator, what I can promise you I can do is, if 
confirmed, I will get out there and I will meet with the 
agencies, the sections within the Embassy who are in charge of 
programs, who are actually dispersing programs. I have been 
doing some thinking about whether the organizational chart at 
the Embassy might reflect putting all the money-dispensing 
offices under one person who could really monitor it, as 
opposed to offices that are dealing with policy or information, 
that sort of thing.
    But money dispensing--I think we need to have a clear 
handle on. We've got U.S. AID there, we've got a number of 
still residual reconstruction money there, we've got refugee 
and resettlement programs. On refugee and resettlement, we're 
not going to get much for our money unless we get buy-in from 
the Iraqis that they really want to deal with resettlement or 
are going to put some money towards the cause. So, I want to 
look at all of these things and see how the money is being 
flowed.
    I don't want to see, for example, money for some, you know, 
3-month Iraqi seminar if no one really wants to go to the 
seminar, no one intends to implement something from the 
seminar. I've seen a lot of these aid programs; I've dealt with 
them all over the Balkans. I've seen countries graduate, which 
is a very nice thing, to see a country like Poland where they 
had all these assistance programs, Korea which had assistance 
programs, graduate. So I've seen the good news stuff, if you 
get it right. So, I would really focus on this.
    Senator Menendez. Well, I appreciate that. Let me ask one 
very quick final question, and that is, picking up on Senator 
Isakson's questioning before, should the military be the face 
of microfinancing the loans or are we looking to--you know, 
this is a big debate as we talk about our foreign assistance 
and how we, in fact, deliver that foreign assistance 
effectively?
    Mr. Hill. Senator, I believe this should be a civilian 
activity. You know, I am certainly willing to, you know, look 
at what the individual circumstances were in this case. And as 
I said, I think it is laudable that our military, you know, 
moves on things when they see problems, but I think these 
should be civilian sector activities. I mean, I did that when I 
did micro-credit when I was in the Peace Corps. Now, alas, 
we're not talking about the Peace Corps at this point, but I 
really do believe it's a civilian activity.
    Senator Menendez. So do I and I appreciate your answers.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez.
    Senator DeMint.
    Absolutely. Senator Wicker.
    Senator Wicker. Thank you, and I do appreciate Senator 
DeMint being generous there.
    Well, Ambassador, thank you for your testimony, thank you 
for your service and your willingness to serve.
    Let me just follow up on Senator Lugar's line of 
questioning. He asked a question on behalf of Senator 
Brownback. As I understand it, this assurance, which Senator 
Brownback believes he received, took place in public testimony, 
is that correct?
    Mr. Hill. Yes, there's a record--public record of it. Yes.
    Senator Wicker. Have you gone back and reviewed the 
transcript?
    Mr. Hill. I have.
    Senator Wicker. OK. And, you know, you're a career 
diplomat, you're a professional civil servant. Words are very 
important. Did it occur to you that perhaps you needed to get 
back to Senator Brownback and clear this up when the party was 
not brought into the talks, as he thought should be done? Did 
you anticipate that this would be a problem?
    Mr. Hill. I said in the testimony that when we get to the 
next phase, and we did not reach the next phase, which, in 
July, I thought I thought was going to come some time in the 
fall. It did not come. And perhaps when we realized that we 
were having problems and they were--they finally, these 
problems finally culminated in December when we had a meeting 
in Beijing and we were not able to get the verification 
protocol that we needed to do phase two--that meant we were not 
going to get to phase three.
    Senator, in retrospect when I realized we were not going to 
get to this next phase, in retrospect, Senator, you're right, I 
probably should have briefed Senator Brownback on the fact that 
we were not getting to phase three.
    Senator Wicker. Because Senator Brownback had placed a hold 
on a nomination and released the hold based on----
    Mr. Hill. Yeah.
    Senator Wicker [continuing]. On what he understood your 
assurance to be.
    But let me move on to another allegation that I'd like for 
you to address, and that--I refer to a Weekly Standard column 
recently by Stephen F. Hayes, in which he talks about the Bush 
administration's determination not to have two-party talks with 
North Korea. And I'll just quote Mr. Hayes and let you respond 
for the record, because I think it's important to clear this 
up.
    Mr. Hill. Sure.
    Senator Wicker. ``Secretary of State, Condoleezza Rice, had 
given Hill permission to meet face to face with the North 
Koreans, but only on the condition that diplomats from China 
were also in the room. Although the Chinese participated in the 
early moments of the discussions, they soon left. Hill did not 
leave then.''
    Now, the article goes on to say that Secretary Rice was 
angry with you, and that CNN reporter Mike Chenoi wrote, 
``Although Rice remained supportive of reviving the diplomatic 
process, Hill had held the bilateral discussion with North 
Korean negotiator Kim Chyguan in defiance of her 
instructions.'' And the author, Hayes, of this article 
concludes that the Secretary of State expressly forbade you 
from participating in the bilateral talks, but that you thought 
otherwise.
    So, this is an opportunity for you to give us your version 
of that.
    Mr. Hill. Well, thank you, thank you very much.
    Actually, what this was--was the start of the--this was in 
the summer of 2005, and this was an effort to get the six-party 
process going, because the North Koreans had boycotted.
    And so, what Secretary Rice agreed to--to do, was to have 
bilateral talk--a bilateral meeting--with the understanding 
that the North Koreans would then announce, at the end of the 
bilateral meeting, their participation in the six-party 
process, but she wanted the Chinese to be there.
    The Chinese came, but the North Koreans were not willing to 
carry on the meeting with the Chinese, so I was there in the 
meeting room, the North Koreans were arriving, and the Chinese 
were disappearing.
    So, the question I had--and Secretary Rice was in the air 
between Anchorage, where she had a refueling stop--and coming 
into Beijing. So, I had to make the call at that point, do I 
continue the meeting or do I walk out? I made a judgment to 
continue the meeting.
    We had the meeting, and at the end of the meeting, the 
North Koreans announced that they were returning to the six-
party process. Secretary Rice arrived that night in Beijing and 
in the morning--and I remember this very clearly--she was quite 
angry, but quite angry with the Chinese for not having remained 
through the process. She expressed that directly to the Chinese 
Foreign Minister in a meeting that I attended the next morning.
    So that was the incident, with respect to the meeting with 
the North Koreans.
    I know there are some journalists who've tried to make this 
a rather dramatic moment. Quite frankly, it was a little less 
dramatic than some of the journalistic retellings of it.
    Senator Wicker. Was she angry with you?
    Mr. Hill. Not to my knowledge. She was angry with the 
Chinese for not persevering.
    Senator Wicker. You and she did not have a verbal 
confrontation about your audible that you called?
    Mr. Hill. Never.
    Senator Wicker. OK. Let me ask you one other thing. There's 
a letter by--signed by some five Senators--Ensign, Inhofe, 
Bond, Kyle, Brownback--in which they are urging the President 
not to choose to appoint you. And they say this, in testimony 
before the Foreign Affairs Subcommittee, Secretary Hill said, 
``Clearly we can not be reaching a nuclear agreement with North 
Korea if at the same time they're proliferating, it is 
unacceptable,'' your quote.
    Mr. Hill. Yeah.
    Senator Wicker. And yet they say that, at a time when 
Congress was trying to answer key questions about Korea's 
proliferation to Syria, you were involved in those 
negotiations, contrary to what they believe was your clear 
statement to the subcommittee.
    Mr. Hill. That we can not reach an agreement if they're 
proliferating, yes.
    Senator Wicker. Yes, well do you see a contradiction there? 
Congress was still wrestling with the fact that--that North 
Korea was proliferating to Syria. And yet you went ahead. I'd 
just ask you to respond to that.
    Mr. Hill. Well, yeah. To the best of our estimate--that is 
other agencies in the U.S. Government, to the best of their 
estimate--the North Koreans ceased proliferating after this 
facility was destroyed.
    Now, it is very clear, at least it's very clear to me and I 
think very clear to most people--that unbeknownst to us, the 
North Koreans had carried on a program to assist Syria in the 
construction of a nuclear reactor.
    We are not aware, to this day, of any transfer of actual 
nuclear material. We are aware, of course, of the transfer of 
nuclear technology, or we became aware of this. The North 
Koreans subsequently stated, and it's part of our agreement, 
that they have no ongoing proliferation activity. We wanted 
that statement to be expanded to acknowledge the fact that they 
were proliferating. So, what they did was they acknowledged our 
concerns about it, they did not acknowledge their past 
activities.
    Do I think that is an honest reaction from the North 
Koreans, that it is in the spirit of what we're trying to do? 
No, it isn't. The North Koreans are a people who try to play by 
their own set of rules and it is difficult to get things done 
with them. We felt it was--given that we had assurances that 
they had stopped, but more importantly we had indications that 
it stopped. Because frankly, getting assurances or getting any 
statements from the North Koreans are not what we're after, 
we're after facts not statements.
    When we saw that the activities had stopped, we felt it was 
worthwhile to continue the effort to disable their nuclear 
facilities in Yongbyon because at the end of the day, if we can 
prevent the North Korean nuclear problem from becoming a bigger 
problem than it is--right now it is a 30 kilo problem. Had we 
not succeeded in shutting down their facilities and in 
disabling their facilities, that 30 kilo problem could have 
been a 60 kilo problem, a 100 kilo problem. I am the first to 
say, Senator, that the job is not done. They have some 30 kilos 
and we can not rest until we get the 30 kilos from them.
    The issue that I've had to deal with as an implementer of a 
policy, and I want to stress there was a chain of command here 
and I was not off on my own. I was receiving instructions 
pretty much on a daily basis, and during the actual 
negotiations I received instructions even from Secretary Rice--
that our effort was to try to shut down and disable the 
production of nuclear materials and then to--to continue and 
get them to put on the table the nuclear materials they had 
already produced, that is the 30 kilos.
    It was at that phase, which did not come, but that was the 
phase where we anticipated--and where I explained to Senator 
Brownback--that is that next phase that we would be prepared, 
and in return for that nuclear material on the table, we would 
be prepared to launch a normalization effort with the North 
Koreans.
    Senator Brownback, quite rightly, and I fully respect this 
position, said, ``We can't be normalizing with a country with 
one of the world's worst human rights records.'' So, I quite--
by the way, I really respect that position as someone who's 
dealt with human rights in my 30-some, 32-year career, I know 
about that, I know very well about that, so I agreed to 
recommend, and Secretary Rice completely agreed with this, to 
create a human rights track. So as we're going forward in 
normalization--this was not just going to be a normalization, 
you give up the nukes and we treat you like you're some ally--
this is a normalization that would include dealing with some of 
the issues that, serious issues that stand between us.
    So, that is what I--what I supported doing and I regret 
that we were not able to get the verification agreement that 
would have allowed us to get onto this next phase.
    Senator Wicker. Thank you.
    Thank you, Mr. Chairman. Might I put Mr. Hayes' column in 
the record.
    The Chairman. Sure, absolutely, and I thank you. I think it 
was an important line of questions to help clarify these issues 
and I appreciate the--so I gave you a little leeway on the 
time.
    [The article from the The Weekly Standard referred to above 
follows:]

     [From The Weekly Standard, Mar. 30, 2009, Vol. 014, Issue 27]

                      The Insubordinate Ambassador

 for a diplomat, christopher hill has ticked off an awful lot of people

                         (By Stephen F. Hayes)

    On October 11, 2006, three days after North Korea detonated a crude 
nuclear device, George W. Bush held a press conference. He recommitted 
the United States to a diplomatic course on North Korea, but ruled out 
a bilateral meeting with representatives from the rogue regime:
    In order to solve this diplomatically, the United States and our 
partners must have a strong diplomatic hand, and you have a better 
diplomatic hand with others sending the message than you do when you're 
alone. And so, obviously, I made the decision that the bilateral 
negotiations wouldn't work, and the reason I made that decision is 
because they didn't.
    Three weeks later, Christopher Hill, a veteran of the Foreign 
Service, overruled the president. Then the government's chief 
negotiator on North Korea's nuclear program, now Barack Obama's nominee 
to serve as U.S. ambassador to Iraq, Hill didn't much care what the 
president wanted. Secretary of State Condoleezza Rice had given Hill 
permission to meet face-to-face with the North Koreans but only on the 
condition that diplomats from China were also in the room. Although the 
Chinese participated in the early moments of the discussions, they soon 
left. Hill did not leave with them.
    North Korea had long sought to deal with the United States 
bilaterally, more for the legitimacy such direct dealings would confer 
on the thuggish regime in Pyongyang than because they were interested 
in serious negotiations. Hill granted their wish. According to former 
CNN reporter Mike Chinoy, in his book ``Meltdown: The Inside Story of 
the North Korean Nuclear Crisis,'' Hill had ``in effect, accepted terms 
the North Koreans had been putting forward for most of the previous 
twelve months''--despite the fact that they were ``overtures the Bush 
administration rejected.''
    Rice was angry. Chinoy writes: ``Although Rice remained supportive 
of reviving the diplomatic process, . . . Hill had held the bilateral 
[discussion with North Korean negotiator Kim Gye Gwan] in defiance of 
her instructions.''
    Think about that. The secretary of state expressly forbade Hill 
from participating in bilateral talks. The president of the United 
States was on record opposing bilateral negotiations. Hill thought he 
knew better.
    Meanwhile, North Korea was on the State Department's list of state 
sponsors of terror, they had just weeks earlier tested a nuclear 
device, and we now know, at the very time Hill was conducting his rogue 
diplomacy, North Korea was supplying nuclear technology to Syria--
another nation on the State Department's list of terror sponsors.
    Hill had done this before. On July 9, 2005, Rice had given approval 
for a trilateral meeting with the Chinese and the North Koreans in an 
effort to get the North Koreans to return to the six-party talks on 
their nuclear program. North Korea had been boycotting the talks in 
part because Rice had referred to the North as an ``outpost of 
tyranny'' in her confirmation hearings. Curiously, the Chinese didn't 
show up, as they had promised. Hill nonetheless met alone with the 
North Koreans and gave them an important propaganda victory. According 
to the official North Korean news agency: ``The U.S. side at the 
contact made between the heads of both delegations in Beijing clarified 
that it would recognize the DPRK [North Korea] as a sovereign state, 
not to invade it and hold bilateral talks within the framework of the 
six-party talks, and the DPRK side interpreted it as a retraction of 
its remark designating the former as an `outpost of tyranny' and 
decided to return to the six-party talks.''
    Leaving aside questions of Hill's effectiveness--``We clearly have 
not achieved our objective with North Korea,'' Vice President Dick 
Cheney told me just before leaving office--his rank insubordination and 
cavalier disregard for presidential prerogatives were surely grounds 
for dismissal. Instead, Bush kept him in place, and now Barack Obama is 
rewarding him with what is arguably the most sensitive and important 
U.S. ambassadorship.
    That appointment has stirred some opposition among Republicans. Two 
weeks ago, John McCain and Lindsay Graham sent Obama a letter pointing 
out Hill's ``controversial'' diplomacy on North Korea and his lack of 
experience in the Middle East. The two senators urged Obama to 
``reconsider this nomination.''
    Early last week, five additional Republicans--Jon Kyl, Christopher 
Bond, Sam Brownback, Jim Inhofe, and John Ensign--signaled their 
opposition to Hill. In a separate letter to Obama they cited Hill's 
``unprofessional activities'' which include cutting out key State 
Department officials from policy discussions on North Korea and 
``breaking commitments made for the record before congressional 
committees.''
    It is that last point that could make things difficult for Hill in 
confirmation hearings scheduled for next week. Brownback believes Hill 
repeatedly misled him--in public testimony--regarding Hill's 
willingness to make North Korea's human rights record a component of 
the six-party talks. In 2008 Brownback placed a hold on the nomination 
of Hill's deputy Kathy Stevens to be ambassador to South Korea. 
Brownback said he would lift that hold if Hill would promise to include 
Jay Lefkowitz, the special envoy for Human Rights in North Korea, in 
all further discussions with the North Koreans. Hill made the promise 
and Brownback lifted his hold on Stevens.
    On October 2, 2008, Lefkowitz met with President Bush and several 
NSC staffers to discuss the possibility of making one last push on 
human rights in North Korea. Bush was enthusiastic. Hill, despite his 
pledge to Brownback and despite the president's enthusiasm, never 
invited Lefkowitz to join the talks.
    When Hill made the rounds on Capitol Hill last Tuesday, he told 
Brownback that the White House, and specifically National Security 
Adviser Steve Hadley, blocked him from bringing Lefkowitz to the 
negotiations with North Korea. Several officials with knowledge of 
those discussions disputed Hill's story and said, in fact, that NSC and 
Hadley pushed to include human rights.
    Brownback, for one, isn't buying. Although Hill has the support of 
several important backers--former ambassador Ryan Crocker, Republican 
senator Richard Lugar, and Generals David Petraeus and Ray Odierno--
Brownback may still place a hold on his nomination.
    ``He didn't follow the law,'' Brownback told me, referring to the 
North Korean Human Rights Act. ``He misled me completely. He was very 
difficult to deal with. And the six-party talks failed.''
    Brownback is undeterred by arguments that there is an urgency to 
fill the post in Baghdad. ``People wanted someone at Treasury quickly 
and looked past [Timothy] Geithner's problems--tax evasion and his time 
at the New York Fed. We need to take the time to get the right person 
in the job. I appreciate what Petraeus and Odierno are saying. But we 
need someone who will follow the law and the direction of the 
president.''

    The Chairman. Senator Webb, you've been very, very patient 
and I want to also afford you the same opportunity if you need 
some extra time.
    Senator Webb. Thank you, Mr. Chairman.
    And I would offer my own observation about the thoroughness 
of Ambassador Hill's responses. I think he could probably 
categorize the explanation under the perils of adroit 
diplomacy, or as we used to say in the Marine Corps, when 
you're up on the skyline you get shot at.
    I strongly support this nomination. I have been pleased to 
work with Ambassador Hill regularly over the past couple of 
years because of the interest that I have in East Asian 
affairs. And I fully respect the concerns of Senator Brownback 
and others, you know, with regard to human rights issues, but I 
hope Chris Hill won't become the Rorschach Test for what the 
policy should have been in the last administration with respect 
to Korea. With respect to North Korea, there are many of us who 
believe that Ambassador Hill was a bright spot in attempting to 
bring that matter to resolution.
    But if there are concerns, we should have a full debate on 
the floor. I don't think this nomination should be put on hold 
in any way. We have too many things to be doing in Iraq and in 
that part of the world.
    Now that being said, I just burned 2 minutes backing you up 
here, Ambassador Hill, and I've got something I want to get 
clarified and it's something that's been concerning me for well 
over a year, and that is the nature of the Strategic Framework 
Agreement and the SOFA Agreement in Iraq and what our 
obligation actually is, and have you read those two agreements?
    Mr. Hill. Yes, I have.
    Senator Webb. OK. I read them last fall when they were, I 
think, wrongly categorized as restricted information, where you 
had to go to a room to read a couple of documents that were not 
even classified, because the previous administration, in my 
view, was trying to keep this issue away from the public 
debate.
    I reread them again about 10 days ago, and I'm an old 
legislative counsel--words are very important to me. You've 
been through this many times and I also notice in your 
testimony and in the phraseology that's now being used, you 
were talking, the administration was talking more about the 
drawing down of forces rather than the withdrawal of forces. 
And I think that's a pretty important distinction when we're 
looking at the verbiage in this agreement.
    And, my concern is this, I was among a number of people, 
the chairman I believe also was--I know Vice President Biden 
was one--who was saying that an agreement of such magnitude 
should have had the approval of the United States Congress. 
Whether or not it was raised to the level of a treaty, it 
certainly should have had the approval of the United States 
Congress. It required the approval of the Iraqi Parliament, and 
yet because of all of the machinations , the Presidential 
campaign, and the business of the Congress, this agreement was 
basically done through executive signatories. It wasn't brought 
before the Congress at all.
    Now, if you go and read this agreement--and if you're not 
familiar enough in detail to give me an answer today, I really 
would like to hear what the administration thinks--if you read 
this agreement in total, if you take articles 2, 24, 27, and 
30, and read them with the definitional phrases against each 
other, there really seems to be quite loose language when we're 
talking about a full withdrawal by the end of 2011.
    Just very briefly, and I appreciate the--if the chairman 
will allow me possibly a couple of minutes here in the 
definition of terms, ``a member of the United States Forces 
means any individual who is a member of the United States Army, 
Navy, Air Force, Marine Corps, or Coast Guard,'' any 
individual.
    Now if you read that against article 24, I'm not going to 
go in detail through all the phraseology, it says, ``All United 
States Forces shall withdraw from Iraqi territory no later than 
December 31, 2011.'' I am of the understanding, although I was 
not a participant, that it at one time said all United States 
forces must withdraw, but now says shall withdraw, ``all United 
States forces shall withdraw no later than December 31, 2011.''
    If you then look at article 27, there are two very lengthy 
paragraphs that I'm not going to quote in total. But they 
basically talk about if there is any external or internal 
threat to Iraqi sovereignty, political independence--very loose 
language--that we will take appropriate measures. And it also 
says that there will be close cooperation and training, 
equipping, et cetera.
    And finally, if you read all that against article 30, it 
says--and this is important because of the way that we came to 
this agreement, it's important to me, anyway, as a legislator--
``this agreement shall be amended only with the official 
agreement of the parties in writing and in accordance with the 
constitutional procedures in effect in both countries.''
    Well, the argument can now be made, since the Congress was 
not a part of the approval of the document, that an Executive 
agreement, a signature--in the same form as the way this 
agreement was signed--could basically say, ``OK, we're not 
going to be out of there by December 31, 2011.'' And, in 
listening to the discussions with respect to residual forces, 
and this sort of thing--I'm not really hearing clearly that 
it's the intention of the administration to have a complete 
withdrawal of all United States Forces by December 31, 2011. 
Would you comment on that?
    Mr. Hill. First of all, with respect to commenting on the 
specifics of the agreement, I would rather get back to you with 
a considered answer--words matter on this.
    Senator Webb. Yes.
    Mr. Hill. This is a fundamental document that is the basis 
for our having forces in Iraq today.
    Senator Webb. So, the question, really, to come back to us 
on is, is it the position of the administration that we will 
withdraw all American military forces from Iraq by December 
31--all?
    Mr. Hill. That is the position, as I understand it.
    Now, I understand, too, that this will be in continued 
consultations. But, my understanding is that it is the position 
that we will withdraw all forces by December 31, 2011.
    Senator Webb. I very much appreciate that answer. Thank 
you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Webb.
    Are there any other questions? Senator DeMint.
    Senator DeMint. Thank you, Mr. Chairman.
    Thank you, Mr. Hill. I know you've had a long sit this 
morning in front of the committee and I appreciate your 
questions.
    I very much appreciate you coming by yesterday, and a 
conversation I shared with you, I feel like I'm asking 
questions on behalf of many constituents. And I find that when 
people are nominated that there are hundreds of experts about 
those nominees that call and demand that we ask certain 
questions, and I shared some of those with you yesterday, and I 
appreciate the openness of your answers.
    I particularly appreciate the fact that in a role with Iraq 
that it was very important to honor the bravery, the sacrifices 
of our troops over many years, and that the resolutions there 
demand that we come away with a sense of accomplishment and 
victory for those who've given so much. And I appreciate that 
perspective that you share.
    There's this one question that I would like to ask, because 
it's something that is coming through on our phone lines, and 
the experts on you--it really gets back to a concern that, 
during the negotiations with North Korea, that there was a flow 
of information, not just inside government, but outside--
outside information related to politics back here in American. 
And specifically, what I'm seeing in the media, and some of the 
requests are a concern that you were communicating with 
Ambassador Holbrooke, during those--but prior to him being 
Ambassador. And that, in some way, was involved with politics.
    And I don't know of which I'm even asking, but again, there 
are a number of people who----
    Mr. Hill. I know what they're talking about.
    Senator DeMint. OK, well, then you know more than I do, and 
I'll just leave it to----
    Mr. Hill. I'll explain it.
    There was a--there was a plan, and I believe this was--
we're talking January 2007 at this time. The plan was that the 
six-party talks had been in abeyance for some time. When we 
tried to meet--when we tried to have a six-party meeting in 
December 2006, the North Koreans would not participate, because 
this went to the issue of their--of the fact that we had 
intervened to try to hold some of their financial holdings at a 
bank in Macao.
    So, at the end of this unsuccessful session in Beijing, the 
North Koreans had a plan to--or told us--that they would be 
prepared to meet us in a third country, to try to make progress 
on the nuclear issue, even though they had stated, as a 
principle, they were not going to talk about anything until 
this financial issue--but they agreed that they would meet us 
in a third country on the nuclear issue.
    I took that back to Secretary Rice, she discussed it, as I 
understand it, with the President, and with Steven Hadley, and 
so it was agreed that I would go to Berlin and meet the North 
Koreans.
    I was also under very strict instructions to keep this 
completely quiet, that is not to have any press leak that I was 
going to have a meeting with the North Koreans.
    Now, why in Berlin? There were a number of reasons, 
including the fact that Secretary Rice was going to be coming 
back from a trip to the Middle East, and I could brief her 
immediately in Berlin.
    So, the issue was--I'm the Assistant Secretary over Asia, 
why am I going to Berlin? Unless it's to meet the North 
Koreans. So, what I did was, I talked to Ambassador Holbrooke, 
who is affiliated with something called the American Academy at 
Berlin, and asked if I could be invited to give a speech at the 
American Academy at Berlin.
    So, the answer was, ``Yes, no problem,'' so we put out the 
word that I was going to give a speech at the American Academy 
at Berlin, which I did.
    In so doing, no one ever knew that the real purpose was to 
meet the North Koreans and make progress on the six-party 
talks. That didn't come out until after we had had the meeting. 
I think it was referred to by the Japanese press as ``The 
Berlin Shock,'' because no one knew it was happening.
    That is the sum total of Ambassador Holbrooke's involvement 
in this matter and a lot of people--knowing that I'd worked 
with Ambassador Holbrooke in the Balkans--then assumed that he 
must have had some role in the negotiations, and that was not 
the case.
    Senator DeMint. That's all I need.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator DeMint.
    Senator Kaufman.
    Senator Kaufman. Thank you, Mr. Chairman.
    The Chairman. Batting wrap-up, here.
    Senator Kaufman. Yes.
    The--I've been struck by, I mean, I know there's some 
questions been raised about your Middle East experience, but 
I--ever since this thing started, I've been struck by the 
similarities between the Balkans, and our involvement in Iraq, 
and lessons learned in Balkans were never applied to Iraq, and 
I think could have helped things.
    Just to go over your record, you were a member of 
Ambassador Holbrooke's team, you were deeply engaged in the 
success of the Dayton Peace Accords, you were Ambassador to 
Macedonia, you helped to ensure refugee camps were established 
for the Kosovo refugees, and special negotiator for Kosovo, you 
were the architect for efforts to secure human rights for the 
population. When those negotiations failed, you recommended 
NATO intervention to prevent ethnic cleansing. That's a great 
record for you to have, and I think it shows that the kind of 
experience you have there will be invaluable in Iraq.
    Can you talk a little bit about community organization 
training of police and things like that, because a number of 
questions have been raised about the PRTs and how that's going 
to work, lessons you learned in Bosnia and the Balkans that you 
think will helpful?
    Mr. Hill. Oh, I think--yes I can--because I think some of 
the things we learned in Kosovo in standing up a police force 
have actually been very applicable in Iraq because before 
Kosovo--I remember when we started to do this--it was not easy. 
We had had some experience earlier in Haiti dealing with police 
training, but getting, you know, establishing the bureaucratic 
mechanisms, getting the police trainers out there was a big 
task.
    When I was--even after I came back from Macedonia in the 
summer of 1999, I was in the National Security Council as 
Senior Director for this Balkan group--and we had to coordinate 
interagency on getting police trainers out there and getting 
prisons built, too. That was another big problem in Kosovo.
    So when I see some of this, some of these problems we've 
had in Iraq, again, I'm looking at it from afar, I need to get 
my boots on the ground and see what it really looks like, but 
it does have a, sort of deja vu all over again feel to it.
    I will say however, that I think things have gone more 
smoothly in Iraq than they did, as we tried to stand it up in 
Kosovo at the time.
    Senator Kaufman. Good. Just a couple questions on Iraq. One 
is the--it seems the proper consensus is that the elections 
really established the idea of a strong central government in 
Iraq. Is that how you feel things came out?
    Mr. Hill. I think the elections will help establish the 
relationship of the central government and the regions, and 
therefore I think they are very important to Iraq's future 
status as a democracy, and therefore something that we need to 
keep a close eye on and be as helpful as we can.
    Senator Kaufman. Good.
    And the final thing is oil and gas legislation. Are you 
concerned about the fact that the Kurds and the central 
government haven't been able to come up with an agreement on 
the oil and gas legislation?
    Mr. Hill. Yeah, you know, I am concerned about that because 
I think it's so important. In fact, just the other day, I asked 
for a special briefing on it from our experts on it, because I 
couldn't understand if all the elements are there, why haven't 
they cut the deal?
    Well, I had the briefing and it turned out it is a very 
complex issue, and as I said earlier, it is an issue that's 
going to--it goes beyond just the issue. For example, managing 
a profit, how to divide the profits between the center and the 
regions.
    In fact, relative to some of the other issues, that's not a 
major issue. So it does need to be addressed. The longer it 
goes on unaddressed, I think is not good news for the Iraqi 
economy, it will not help get Iraqi--foreign investment into 
Iraq and I think--I'd like to see if we can pick up the pace on 
that.
    Senator Kaufman. I'm looking forward to visiting you in 
Iraq.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Someone had mentioned that Senator Shaheen might be on the 
way, but we're going to wrap up, I think, unless Senator Lugar 
had additional questions.
    Let me just say, on behalf of the committee, and I think 
Senator Lugar would agree with me, that I think you've shown 
here today why you are qualified and the right person for this 
job. I think you've answered questions that were raised by 
colleagues and all of them are legitimate, and in this business 
people have a right to respond to general questions and 
inquiries and sometimes conspiracies that circulate.
    But I think you've answered them very directly with candor 
and comprehensively today. And I hope that those people who 
have raised the questions have listened carefully to your 
answers, because I think the record which you have referred to, 
and you've gone back and reviewed, is very clear with respect 
to never having gotten to the other phase.
    I thought one of the most important things you did say was 
that you had almost daily instructions that you were working 
under, as most negotiators and diplomats do. This was not a 
freelance operation. And I've heard any number of questions 
raised that this is not an area where you've spent most of your 
career.
    Well, the fact is that the skills one learns in many of 
these other places are what are important. The experience of 
the judgments you make, the puzzles you sometimes have to put 
together have great similarities in whatever part of the world.
    And the mark of a great diplomat and of an expert, whether 
it was, you know, Henry Kissinger or Jim Baker or others, they 
didn't always approach every place with the greatest amount of 
experience in that place. But like a good lawyer, when they got 
their brief, they studied it and they knew it, and when they 
appeared, they were as skilled and capable as anybody else.
    I think the President's confidence in you, the Secretary of 
State's confidence in you, Senator Lugar's confidence, General 
Odierno and the Pentagon's confidence, and others, speaks 
volumes. And it is critical to us to get you in place. These 
are critical weeks. The Congress is about to go out for the 
Easter recess. It would be unconscionable, I think, to leave 
this post in its current state of transition during that period 
of time.
    And so for all those of us who--and that's everybody in the 
Congress and the Senate who cares enormously about the 
outcomes--I think people need to review this record today and 
expedite this nomination next week.
    So we will leave the record open for 24 hours so that any 
additional questions can be submitted, if they need to be, in 
writing. We'll have a business meeting next week. General 
Eikenberry will appear before the committee tomorrow, and we 
hope to proceed rapidly next week, to be able to confirm these 
nominees.
    Senator Lugar, do you have anything to add?
    If not, then we thank you very much for appearing today, 
and we look forward to proceeding forward.
    We stand adjourned.
    [Whereupon, at 11:39 p.m., the hearing was adjourned.]


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record


reponses to additional questions submitted for the record to ambassador 
            christopher r. hill by senator richard g. lugar


    Question. Your statement contained scant details about the mission 
of the Embassy going forward through this very significant drawdown 
period. The civilian institutions have been playing catch up for much 
of the last six years, and finally appear to be in step. The next two, 
if not the next six years are no less important than the last six and a 
robust planning effort is absolutely necessary.

   Please share with us details of the State Department's aspects for 
        the drawdown and post drawdown phase that will reassure us that 
        this planning is in advanced stages and being pursued 
        rigorously.
   What are your top worries? What worse case scenarios have been 
        planned for?
   How prepared is State for any continued counterinsurgency demands?

    Answer. The President made clear in his February 27 speech that we 
must maintain a strong political, diplomatic and civilian presence as 
we draw down our military forces. Civilian agencies across the board--
from State to AID, Agriculture, Justice, Homeland Security, Treasury, 
Commerce and more--have staff on the ground in Iraq and are making 
significant contributions. Maintaining a strong civilian presence with 
secure and effective engagement will be my top priority.
    Planning for this effort in light of the drawdown is underway, both 
in Washington and at Embassy Baghdad. Extensive interagency 
consultations have been held under the direction of the National 
Security Council to identify the most appropriate civilian footprint as 
we draw down military forces. Our plans are furthest along regarding 
Provincial Reconstruction Teams, where we will need to consolidate the 
10 PRTs embedded with combat brigade teams as those brigades draw down. 
As I noted in my testimony, we plan to consolidate the number of PRTs 
from 16 to six by the end of 2011. In implementing this, we will take 
into account political factors as well as security conditions.
    In addition, there are ongoing efforts to examine Embassy-based 
staff to ensure that we have the right size and mix of officers and 
staff. I intend to focus on those efforts along with members of my 
Country Team to ensure we have the best mix to carry out the 
President's policies.
    One of my chief concerns or worries will be to ensure that our 
civilian teams are provided the protection they require to accomplish 
their missions. The President has stated that providing such protection 
will be among the primary missions of our military transition force so 
I am confident that we can maintain a robust civilian presence in the 
field.Civilian agencies have worked effectively with our military 
colleagues on counterinsurgency issues throughout Iraq. In looking at 
our PRT footprint, we will seek to retain those PRTs that have been 
most active in provinces still plagued by violence and instability and 
those that are strategically most significant. I will ensure that our 
presence remains such that we can continue this cooperation throughout 
the drawdown period.


    Question. The latest quarterly report on Iraq Reconstruction (2207 
Report) was issued in October 2008. Is there a more recent one 
available?

    Answer. The latest 2207 quarterly report on Iraq was transmitted to 
Congress on January 14, 2009.


    Question. The President seems to have removed conditions on the 
withdrawal and yet Prime Minister Nuri al-Maliki said in a March 15 
interview that the U.S. would not withdraw troops from areas of Iraq 
that are not ``100 percent secure and under control.'' What is your 
sense of this? In preparing for this assignment, what have you 
understood about our planning? What other than the request of the 
Government of Iraq, would slow or reverse the withdrawal of forces, 
first from population centers and then from the country as a whole?

    Answer. The President's plan to draw down our military forces in 
Iraq was the result of a comprehensive review by all national security 
agencies in the U.S. Government and has their concurrence. The review 
also respected the Security Agreement between the United States and 
Iraq that calls for the withdrawal of U.S. combat troops from cities 
and populated areas by June 30, 2009 and the withdrawal of all U.S. 
forces from Iraq by December 31, 2011. In the course of preparing for 
this assignment I have spoken extensively with the senior officials, 
including those in the military, involved in these decisions and been 
fully briefed.
    An important part of the President's strategy calls for regular 
interagency reviews of our military and civilian presence and missions 
in Iraq. These will help ensure that we have the flexibility to respond 
quickly and effectively to changing conditions. In addition, U.S. 
military forces in Iraq consult closely with their Iraqi counterparts 
to ensure that no actions are taken that would undermine safety or 
security in Iraq. The plan chosen allows for significant flexibility 
for General Odierno to adjust his forces on the ground to address 
``hotspots'' that Prime Minister Maliki referred to.
    It would be for the President to decide what factors might alter 
our drawdown plans. It is important to note that the Embassy and MNF-I 
are also in daily contact with Iraqi political and military officials 
about security conditions so that adjustments can be made as we draw 
down.


    Question. Are there plans to leave large remainders of forces in 
the region? If so, what will be the makeup and role of these personnel? 
Do you sense that they will be necessary to reassure our allies and 
serve warning to our adversaries that US interests in regional 
stability and security are not on the wane?

    Answer. The President has made clear that U.S. combat forces will 
depart Iraq by August 31, 2010 and that all U.S. Forces will depart by 
December 31, 2001. It would be inappropriate for me to comment in an 
unclassified setting on the disposition of military forces in the 
region except to say that the plan allows significant flexibility for 
our military commanders during the timeframe noted above. Our drawdown 
strategy for Iraq was reached after considerable analysis and 
consultation with military commanders responsible for our forces in 
Iraq and the region. Our friends and allies in the region as well as 
our adversaries can be certain that we will continue to protect our 
interests in Iraq and the region


    Question. President Obama said during his speech at Quantico that 
the training and equipping of Iraqi forces will continue as long as 
they ``remain non-sectarian.'' Are they judged to be non-sectarian now? 
How is this measured? What efforts are taken to ensure that they remain 
this way?

    Answer. The Iraqi Security Forces have made great progress over the 
last few years in becoming a more professional and disciplined force 
representing the people of Iraq rather than a particular sect or 
element. Through our training and advising programs throughout Iraq we 
judge there has been significant progress on addressing previous 
sectarian issues in the Iraqi Security Forces. Prime Minister Maliki 
and the military and civilian security leadership have acted to remove 
officers in all services believed to have been involved in sectarian 
activity. The Prime Minister is also committed to maintaining capable 
security forces that reflect the ethnic diversity of the country and 
that are subordinate to civilian leadership. MNF-I personnel work 
closely with Iraq security personnel to assist them in realizing their 
goal of a professional, capable, and non-sectarian force.


    Question. You have currently 29 PRTs of various types. How many 
will you have after troops withdraw from population centers after June 
2009?

    Answer. Recent adjustments have left us at this time with a total 
of 26 Provincial Reconstruction Teams (PRTs) of various types (16 PRTs 
and 10 embedded PRTs). Our plan is to begin in September 2009 to begin 
to draw down all 10 ePRTs in tandem with the drawdown of the combat 
brigade teams with which they are embedded, leaving 16 PRTs by August 
2010. As noted in my testimony, the plan then calls for consolidating 
the 16 PRTs into six PRTs by the end of 2011. It is worth noting that, 
even as combat troops withdraw, the Security Agreement allows military 
forces on civil support missions to continue to operate inside the 
cities.


    Question. Judicial intimidation continues to thwart advances in 
Rule of Law and Criminal Justice. How will the drawdown affect our 
ability to protect Iraqi judges?

    Answer. Our efforts have shifted from the direct provision of 
security for judges to helping the Iraqis build their own capacity to 
do so. We are now teaching Iraqis to conduct their own courthouse 
vulnerability assessments and developing a train-the-trainers program 
for the Facilities Protection Service.The Iraqi Higher Juridical 
Council and the Ministry of Interior (MOI), working together, have 
developed a plan that will enhance the Government of Iraq's capacity to 
protect Iraqi judges from physical threats. MOI's dignitary protection 
service will create a new wing to provide security for judges. This 
plan, in the process of implementation, is intended to eventually 
eliminate the need for a U.S. role in the protection of judges.


    Question. In this election year, Prime Minister Maliki is making 
savvy moves to broaden his appeal, reaching out to Sunnis and Shiites 
alike. This seems to be calming intra-Arab tensions, but is he 
provoking the Kurds?

    Answer. Prime Minister Maliki's efforts to work with all ethnic 
groups are a welcome development. We took particular note of his recent 
public statement calling for reconciliation with former elements of 
Saddam Hussein's regime, primarily Sunni Arabs. The sustained 
reintegration and participation of Sunni Arabs in Iraq's political 
process is essential to sustaining stability and fostering 
reconciliation.
    Maliki's continued effort to reach out to Shi'a political entities 
reflects his desire to build upon and secure gains his State of Law 
list made in provincial elections. Having won a plurality of votes in 
nine of 10 Shi'a-majority provinces, State of Law is working to develop 
coalitions to successfully meet the upcoming challenge of provincial 
governance.
    We do not interpret these actions by the Prime Minister as an 
effort to provoke the Kurds. Different understandings of the role and 
relative power of the central government and of the regional and 
provincial governments are issues that need to be worked out peacefully 
through the political process. The Kurds have worked closely with Sunni 
Arab and Shi'a political parties in the Council of Representatives, 
especially with the Iraqi Islamic Party and Islamic Supreme Council of 
Iraq, or ISCI. We see an emerging effort by political entities--
including by Maliki, the Kurds and others--to reach across ethno-
sectarian lines, thereby promoting the gradual development of issue-
based political coalitions.


    Question. How will Iraq's political factions react to the 
withdrawal of US forces? Are they positioning for advantage? If so, 
which factions should be watched as they make adjustments in their 
positioning? What level of confidence do you have in your assessment?

    Answer. The current political dynamic appears to be being driven 
more by the outcomes of recent provincial elections and the prospects 
of national elections than by the plans for the drawdown of U.S. 
forces.
    Provincial elections saw the ousting of most incumbent candidates, 
as well as a major shift in the balance of political power among 
parties on provincial councils. This shift has led to an ongoing 
process of forming post-election governing coalitions. Coalitions may 
continue to shift through the year as political entities address the 
dual challenges of governing their provinces and campaigning for 
national elections. If confirmed, I intend to closely follow these 
political dynamics, including whether emerging provincial coalitions 
lead to the formation of any national governing coalitions.With respect 
to the drawdown of U.S. forces, some Kurdish leaders, such as Massoud 
Barzani, perceive an effort by Prime Minister Maliki to increase power, 
and see the U.S. as a guarantor of security and stability. The Kurds 
will likely continue to work with both Shi'a and Sunni Arab partners in 
the Council of Representatives to secure their political interests. For 
example, on March 24, KRG Prime Minister Nechirvan Barzani met with 
Prime Minister Maliki in Baghdad in a first step towards resuming a 
dialogue. If confirmed, I will work to diminish Kurd-Arab tensions as 
U.S. forces draw down.


    Question. A lack of cooperation between the MoI and MoJ continues 
to undermine the judiciary's authority and independence. Is this a 
partisan issue or is it a capacity problem? What solutions should be 
offered by State and GOI in order to address this issue?

    Answer. Three different entities are involved in administering 
criminal justice in Iraq: the Ministry of Interior (MOI) oversees 
police and security forces; the Ministry of Justice (MOJ) oversees 
corrections; and the Higher Judicial Council (HJC) oversees courts, 
judges, and prosecutors. Iraq's constitution established the HJC as an 
independent branch of government; however, the constitution did not 
fully address the separation and roles of the various judicial 
entities. For example, the Judicial Training Institute was left under 
the control of MOJ instead of HJC although judges fall under the 
control of the HJC.
    To assist the Government of Iraq in addressing these issues, the 
U.S. is providing technical assistance to the HJC and the Council of 
Representatives to draft legislation that clarifies these roles. The 
U.S. also supports a justice integration program that identifies 
procedures, policies, and processes where the GOI could encourage 
greater interagency coordination and information-sharing. U.S. legal 
experts have brought together judges (HJC) with police investigators 
(MOI) and corrections officers (MOJ) to discuss improvements in the 
judicial process. We are facilitating an agreement on a common ``data 
dictionary'' to facilitate interagency information-sharing.


    Question. How are Iraq's NGOs developing? What is the status of the 
NGO law? Please provide the latest translated draft to the Committee 
staff.

    Answer. Iraq's NGO sector is extremely nascent and underdeveloped. 
The 2008 draft NGO law was approved by the Council of Ministers (the 
Cabinet) in late March 2009. The Parliament must approve it next. 
According to the independent NGO Coordination Committee in Iraq, the 
latest draft contains significant improvements on previous drafts, but 
international and local NGOs are concerned that the GOI seeks to 
control NGOs' activities rather than to support the development of an 
autonomous and vibrant civil society. A copy of the latest translated 
draft of the national NGO law is attached.
    In addition to issues regarding the content of the legislation, 
NGOs have continuing concerns about the NGO registration process in 
Iraq, which is time-consuming, onerous, and often lacks transparency 
and consistency. One positive development in this regard is that the 
Iraqi NGO Registration Directorate has set up a functioning website, 
which solicits NGO registration applications and renewals, with 
explanations of the procedure. The website address is http://
www.ngoao.gov.iq/.
    According to the State Department's latest Human Rights Report, 
more than 6,000 NGOs were registered in Iraq at the end of 2008. 
According to the director of the Cabinet Secretariat's NGO Assistance 
Office, approximately 1,800 were operational, including 235 that focus 
on human rights and 181 that are dedicated to women's rights. The 
majority of human rights NGOs were affiliated with political parties or 
with a particular sect, and frequently focused human rights efforts 
along sectarian lines. Exceptions were branches of international NGOs 
and NGOs serving women, which were generally nonsectarian.


    Question. How are Iraq's press and civil society developing on the 
whole? Will these developments be sustainable during and after the 
drawdown?

    Answer. President Obama stated in his February 27 speech that ``we 
will help Iraqi institutions strengthen their capacity to protect the 
rule of law, confront corruption, and deliver basic services.'' In this 
context, we see a major role for strong civil society organizations and 
a free and independent media. This has been a focus for the U.S. 
government (and Iraq's other international partners) since the removal 
of the former regime. There are numerous programs underway to build the 
capacity of civil society and media institutions, and we have been 
encouraged by their progress.
    Civil society organizations and the press are affected by the 
fragile security environment as well as gaps in legal protection. 
According to the Committee to Protect Journalists (CPJ), in 2008 eleven 
Iraqi journalists were killed because of their work, making Iraq the 
most dangerous nation for the press for the sixth consecutive year in 
the CPJ listing. At the same time, however, this was the lowest yearly 
toll since 2003, and two-thirds lower than in 2006 and 2007. Many major 
media outlets are under the control of political parties and follow 
party lines in their coverage. Some journalists practice self-
censorship in the face of anti-defamation laws and possible reprisals. 
Nevertheless, there is a clear determination among many journalists to 
establish themselves and their profession as credible forces in Iraq's 
budding democracy.
    Like journalists, civil society activists have been the victims of 
targeted killings. As noted in the 2008 State Department Human Rights 
Report, activity and advocacy by the country's relatively new NGOs 
remained weak overall. At the end of 2008, there were 6,000 registered 
NGOs, but less than one-third were operational. There have been gradual 
improvements in the ability of citizens to register their organizations 
and in the protection of financial assets from arbitrary freezing by 
the government. These changes, plus the passage of an NGO law that 
adheres to international standards and practices, would enhance the 
prospects for civil society. U.S. assistance will be very beneficial. 
For example, USAID's Community Action Program is helping many hundreds 
of community action groups across the country work with local 
governments to plan and allocate provincial budgets--thereby 
encouraging citizen involvement in a key government function.
    The positive growth of civil society and the emergence of a free 
and independent press depend in large part on further security 
improvements, accompanied by better legal protection. On the security 
side, it is our assessment that the Iraqi security forces will provide 
increasingly higher levels of protection to the public as U.S. forces 
withdraw. U.S.-funded programs will emphasize capacity-building within 
the media and civil society organizations and work with the Iraqi 
authorities to improve legal protection.


    Question. Is the lack of serious action within or leadership from 
the Iraqi Ministry of Displacement and Migration a factor of capacity 
or will? What solutions should be offered by State and the GOI in order 
to address this issue?

    Answer. The Iraqi Ministry of Displacement and Migration (MODM) 
requires increased resources and additional capacity-building to 
adequately meet the needs of displaced Iraqis. Moreover, it lacks the 
status of a full ministry. The Basic Law, which would make MODM an 
official ministry, was submitted to the Iraqi parliament last year but 
has not yet been passed.
    Despite its status, the Ministry has taken steps to address 
displacement issues inside Iraq. In July 2008, MODM hosted a national 
returns conference in coordination with the UN. At the conference, the 
Ministry launched its National Strategy on Displacement, which outlines 
its day-to-day operations. A month earlier in June, the Iraqi 
government budgeted $200 million for MODM in its supplemental for 
programs to assist returning Iraqi refugees and internally displaced 
persons. Due to the drop in oil prices last year, we anticipate a 
smaller budget for the Ministry in 2009.
    The USG, through the Bureau of Population, Refugees and Migration 
(PRM) and the U.S. Agency for International Development's Office of 
Foreign Disaster Assistance (USAID/OFDA), has maintained a capacity-
building program for MODM since the ministry's inception. PRM 
contributed $4 million to the International Organization of Migration 
to provide technical and organizational capacity-building assistance to 
MODM from October 2004 through March 2008. This assistance consisted of 
developing and refining MODM's institutional mandate and organizational 
structure, designing departmental functional statements and standard 
operating procedures, and training key MODM staff.
    USAID/OFDA has provided more than $3 million to support a 
humanitarian capacity-building program in Iraq. As part of the program, 
USAID/OFDA implementing partners help build the capacity of MODM to 
improve mechanisms for monitoring population movements, assessing the 
needs of Internally Displaced Persons, and preparing for the return of 
displaced Iraqis to their area of origin through support to MODM 
returnee assistance centers.
    The USG, along with the office of the UN High Commissioner for 
Refugees and international non-governmental organizations, plans to 
continue to build capacity at MODM and provide support for its 
initiatives. For example, MODM has opened three returnee assistance 
centers in Baghdad to assist returnees with property claims. The 
centers' lack of resources and bureaucratic procedures have led to 
inefficiencies. In an effort to streamline operations, USAID-funded 
International Medical Corps is working with one of the centers to 
improve operations. This center will likely be the model for others in 
Baghdad and Iraq. Recently, UNHCR developed a proposal to open 16 new 
returns assistance centers across the country, in coordination with 
MODM.


    Question. What progress is Iraq making on EITI?

    Answer. The Government of Iraq formally committed to implement the 
Extractive Industries Transparency Initiative (EITI) on April 3, 2008 
and reiterated its commitment at the Iraq Compact Annual Review 
Conference in Stockholm, Sweden on May 29, 2008. The EITI Chairman and 
the Regional Director for Anglophone/Lusophone Africa and the Middle 
East went to Baghdad on October 6, 2008 to meet with Deputy Prime 
Minister Barham Saleh and Oil Minister Hussain al-Shahristani. The Oil 
Minister appointed a Director General, Nihad Moosa, to lead the effort. 
The Deputy Prime Minister appointed her as the National EITI 
Coordinator. The Oil Minister and the National EITI Coordinator 
attended the EITI Global Conference in Doha in February 2009.
    The National EITI Coordinator has undertaken efforts to prepare 
Iraq for implementation. The EITI is providing assistance and training. 
DG Moosa is also in discussions with the World Bank to assist in the 
development of an implementation work plan. She is planning outreach to 
stakeholders within the oil and gas sector including federal and 
regional entities using mass media, public events, and workshops.
    To develop the implementation work plan, the Government of Iraq 
faces the challenge of customizing the EITI framework to Iraq's 
context, taking into account state-owned operating and marketing 
companies, the Ministry of Finance, the Central Bank, other federal 
ministries, and regional entities, in particular, the Kurdistan 
Regional Government. Once the work plan is developed and approved, it 
may become necessary to develop legislation, regulations and 
instructions for its implementation. It will also be necessary to 
ensure that current contractual and regulatory activities do not 
contradict EITI implementation requirements. Iraq's National EITI 
Coordinator is looking for support from other countries and 
international organizations for technical assistance and capacity 
building. The U.S. will be working with the Oil Ministry and other 
Iraqi stakeholders to support EITI implementation through the Oil & Gas 
Working Group established under the bilateral Strategic Framework 
Agreement.


    Question.  How robust is the IMF and World Bank Staff presence in 
Iraq? Are there any areas in which their presence could be improved?

    Answer. Despite repeated urgings from the U.S. Executive Director 
as well as various agencies of the U.S. Government, the IMF has not 
stationed a representative in Iraq and does not send missions to Iraq, 
citing security concerns. In order to accomplish its important work for 
economic reforms and stability, the IMF meets often with senior Iraqi 
officials in Amman, Jordan and Washington. Although these arrangements 
are less than optimal, Iraq has performed well under its Emergency Post 
Conflict Agreement (EPCA) and successive Stand-By Arrangements (SBAs).
    The World Bank has a small international staff stationed in 
Baghdad. They are supported by a much larger local service agent that 
fields more than 60 Iraqi and other Arabic speaking experts and 
consultants to handle the World Bank's day-to-day business with 
Ministries and in the provinces. The World Bank's new Third Interim 
Strategy Note (ISN) anticipates increases in World Bank international 
staffing in Iraq. At working-level meetings and during the World Bank 
Board of Executive Directors meeting when the ISN was adopted, the U.S. 
strongly urged the World Bank to increase its staffing and strengthen 
its organization in Iraq.


    Question. What effect is the world economic crisis having on Iraq 
and what effect do you estimate it will have in the longer term?

    Answer. While Iraq's economy has improved in recent years, the 
world economic crisis has had a significant impact. Because Iraq's 
economy is heavily dependent on the oil sector--over 90 percent of 
government revenues come from oil exports--the most severe development 
for Iraq has been the precipitous drop in crude oil prices, from $150 
per barrel in July 2008 to around $50 per barrel currently. Lower oil 
prices, combined with stagnant oil production and export levels, will 
constrain government spending and likely slow economic growth in the 
near term.
    The world economic crisis has had a limited effect on Iraq's 
financial sector because it is underdeveloped and largely disconnected 
from international financial markets. Nevertheless, the contraction of 
global trade and investment may deprive Iraq of some much-needed 
outside investment. Lower world prices for commodities such as food and 
fuel have reduced inflationary pressures on Iraq's economy and the 
fiscal pressures on the Iraqi government, but have also reduced the 
incentive for policy and subsidy reforms in these areas.
    A prolonged period of budget austerity could force the Iraqi 
government to reduce efforts to improve essential basic services, and 
could force disruptions in subsidies and public sector payrolls. Over 
the medium term, expanding opportunities and creating jobs, especially 
within the nascent private sector, will help solidify democracy, ease 
reconciliation, and underpin security.


    Question. What is inhibiting private sector growth and job creation 
in Iraq? Beyond petroleum sector, what areas do you think are ripest 
for such growth? How are US programs being helpful in particular?

    Answer. Though the Government of Iraq has taken some steps to 
improve the business climate, much remains to be done. Security has 
improved, but the perceived fragility of the situation still causes 
firms to delay potential investment plans. Corruption also remains a 
significant impediment. Unclear or unhelpful regulatory requirements 
are also among the most challenging obstacles to carrying out business 
in Iraq. These requirements include cumbersome procedures for 
commercial registration, unclear land and property titling, unreliable 
dispute resolution mechanisms, and the absence of key legal measures to 
assure investors.
    Certain sectors of Iraq's non-oil economy have proven attractive to 
outside investment interest, including financial services, construction 
(including housing), hospitality, telecommunications, industrial 
materials, transportation, consumer products, and agriculture and 
agricultural processing.
    The U.S. Government has a number of programs across agencies to 
help address such private sector development efforts. The Overseas 
Private Investment Corporation (OPIC) provides political risk insurance 
and financing for both large structured transactions and small and 
medium-sized enterprises. USAID provides sustainable microfinance, bank 
lending for small and medium-sized enterprises, and business 
development services and training at Small Business Development Centers 
throughout Iraq.
    DOD's Task Force to Improve Business and Stability Operations 
(TFBSO) has strived to restart state-owned enterprises to increase 
employment, attract foreign direct investment, and modernize Iraq's 
private banking sector. The USG also encouraged the GOI to undertake 
reforms aimed at improving private sector development at the Dialogue 
on Business and Investment Climate held in Baghdad in November 2008, 
co-chaired by the U.S. Treasury Deputy Secretary and GOI Vice President 
Abdel Mahdi.


    Question. How will the Embassy's role change as the MNFI draws 
down? PRTs? Civilian partners?

    Answer. The Embassy and its component PRTs will play an 
increasingly important role as our military forces draw down. The 
President has made clear that as we shift our military forces, it is 
essential that we maintain a strong political, diplomatic and civilian 
effort in Iraq. I will be coordinating closely with General Odierno as 
we make this important transition.
    More than one-third of our PRTs are embedded with combat brigades, 
so the number of embedded PRTs we maintain in the field will 
necessarily drop as the drawdown proceeds. I will ensure that as we 
consolidate these ePRTS with regular provincial PRTs we maintain 
engagement in all crucial areas.
    More broadly, I am committed to maintaining robust engagement 
throughout Iraq even as we adjust our physical presence. The vast 
majority of our PRTs are co-located with military forces and rely on 
them for movement and life support. Careful planning with the military 
is required to ensure that this support continues in areas where we 
require continued presence. The formation of new Advisory and 
Assistance Brigades could provide one such means of support. I am 
optimistic, too, that improved security conditions will allow our 
civilian officers to travel more frequently and extensively throughout 
the country.
    Civilian partners ranging from the United Nations, to the National 
Democratic Institute and the International Republican Institute, to 
NGOs involved in humanitarian assistance to displaced persons, all play 
an important role in Iraq. They are truly partners. I intend to 
continue supporting their efforts and to welcome new NGO and other 
civilian partners as security improvements permit them to establish or 
expand their programs in Iraq.


    Question. Will State resume responsibility for the police training 
mission?

    Answer. With the President's announcement of a timeline to end the 
combat mission in Iraq by August 31, 2010, and his support for a strong 
political, diplomatic, and civilian effort, we are working with DOD to 
assess and identify the best way forward for State to assume 
responsibility from DOD for the Iraqi police development mission. The 
Secretary of State and the Secretary of Defense will jointly decide on 
the transfer of these functions to an appropriate organization under 
the authority of the Chief of Mission. While no decisions have been 
made regarding the timing, modalities, or scope of this transition, 
planning for the transfer of responsibility has begun and a State-led 
interagency assessment is underway now in Iraq.

     [Supplemental information relating to this response follows:]
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Question.  Do the Department of State and other civilian 
agencies continue to rely on the DoD LOGCAP contract for care 
and feeding and other logistics functions? What is the State 
Department share of that contract?

    Answer. The Department of State and many other civilian 
agencies continue to rely on the DOD LOGCAP contract for 
essential life support and operational support services. While 
the move to the New Embassy Compound (NEC) has reduced the 
range and level of services required, critical support services 
are still provided by LOGCAP to the NEC--notably food services, 
fuel delivery and waste removal. The Department has moved to a 
competitively awarded State Department contract for maintenance 
services on the NEC. The Department currently funds 40 percent 
of the Chief of Mission LOGCAP task order under the contract.
    The Mission and the NEA bureau, in conjunction with the 
Acquisition Office at the Department of State, are actively 
reviewing what additional services can be provided directly in 
the future in our continuing plan to move off of LOGCAP 
contract service where it is in the best interest of the 
Department. We are also communicating our plans with the office 
that administers the LOGCAP contract, DOD's Rock Island 
Contracting Center (Rock Island, Illinois). The Rock Island 
Contracting Center has been an invaluable partner in supporting 
the operational needs of our Mission in Iraq, and the 
communication between the Department and the contracting center 
has been excellent.
    In addition to the LOGCAP support in Baghdad to the 
Mission, the Department's Regional Embassy Offices in Hillah 
and Basrah continue to receive the majority of their life 
support and operational support from the LOGCAP contract.


    Question.  In the hearing you mentioned that institution 
building remains a key mission. MOI's maturation has been a 
particular challenge. Have we sought contributions of European 
partners to help the MOI?

    Answer. Yes. Most significantly, the NATO Training Mission-
Iraq (NTM-I), to which 12 NATO members and Partnership for 
Peace member Ukraine contribute, has had an extensive and 
highly successful training program with the Iraqi National 
Police, with plans to train other elements of the Ministry of 
Interior. With the assistance and mentoring of the Italian 
Carabinieri, the National Police of Iraq have become a 
substantially more effective and professional paramilitary 
counter-insurgency force. UK forces have also trained Iraqi 
police personnel in Basrah. In addition, the UK has a leading 
role in developing the forensic capability of Iraqi law 
enforcement.
    The European Union is focused on strengthening the rule of 
law in Iraq and assistance is channeled to capacity-building 
programs in Iraqi ministries, including the Ministry of the 
Interior. In particular the European Union's ``EUJUST LEX'' 
mission is aimed at training police officers, judges, and 
prison staff. For example, the police program includes training 
on leadership, homicide investigation management, public order 
management, human rights, and major critical incident 
management.


    Question. What can the U.S. do to help Iraq turn the corner 
on corruption and Rule of Law issues?

    Answer. The U.S. provides assistance to the Government of 
Iraq (GOI) to promote a society in which clear rules are 
codified in law, and fair, capable, accessible, and transparent 
institutions and systems enforce those rules. U.S. Rule of Law 
programs to achieve this goal include training corrections 
officers in humane treatment of prisoners; training police in 
how to effectively serve the community; technical advice in the 
development of legislation to support an independent judiciary; 
and guidance on how to improve efficiency and transparency in 
the administration of the courts.
    U.S. anti-corruption efforts are handled by the Anti-
Corruption Coordinator's Office at Embassy Baghdad, headed by 
Ambassador Joseph Stafford. Efforts largely focus on providing 
support and technical assistance to the GOI to promote 
compliance with its numerous obligations under the UN 
Convention against Corruption (UNCAC). Specific actions include 
assisting Iraq's Council of Representatives (COR) in reforming 
Iraq's existing legal framework to comply with the UNCAC; 
engaging with Iraq's three principal anti-corruption bodies 
(the Board of Supreme Audit, the Commission on Integrity, and 
the Inspector General), as well as the Joint Anti-Corruption 
Council, the judiciary, and the COR's Integrity Committee to 
provide technical assistance and build capacity; promoting 
anti-corruption efforts at the provincial and local levels; and 
assisting the GOI in conducting a multi-pronged public 
education effort to raise Iraqis' awareness of corruption's 
negative impact on the country's politics, economy, and 
society.


    Question. What's the trajectory for CERP funding? Will 
these accounts be civilianized?

    Answer. The Commander's Emergency Response Program (CERP) 
has been a valuable tool for military commanders to foster 
stability and foment economic development in Iraqi communities. 
However, it was foreseen at the inception of the program that 
the Government of Iraq would some day bear the full burden of 
providing security and essential services for the country and 
its people. Already Iraqi CERP funds have been used in 
coordination with U.S. commanders to foster stability as other 
Iraqi funding mechanisms are used for economic development and 
humanitarian relief. As our responsible drawdown of forces 
continues, we will continue to shift funding obligations for 
security operations and provide essential services from U.S. 
Forces to the Government of Iraq.


    Question.  On Sunday March 22nd, the New York Times 
reported that the GOI held a scholarship fair for international 
education, and that Prime Minister Maliki is sponsoring 500 
students this year and envisions expanding to sponsor 10,000 
Iraqis per year to study abroad. How many visas were issued to 
Iraqis last year to travel for cultural or educational purposes 
to the United States? How does this compare to the number of 
visas issued to Syrians and Iranians? What is the goal for 
2009? What will you do to increase this number?

    Answer. The U.S. Embassy in Baghdad directs an active 
educational and cultural affairs program. In 2008, Iraqis were 
issued a total of 795 student and exchange visitor visas, 
Syrians a total of 331, and Iranians a total of 1,434. These 
totals do not include spouses or children.
    In the fall of 2009, up to 35 Iraqi Fulbright Master's 
degree candidates and up to five Fulbright Foreign Language 
Teaching Assistants are expected to travel to the U.S. under 
the Fulbright program. This is in addition to students who 
travel under Iraqi government or other sponsorship. According 
to the Institute of International Education's Open Doors survey 
of international student enrollments, in the 2007/08 academic 
year, 307 Iraqi graduate and undergraduate students were 
enrolled in accredited U.S. colleges and universities, along 
with 3,060 Iranian and 517 Syrian students.
    We welcome Prime Minister Maliki's intention to increase 
his government's scholarships for Iraqi students. Our Embassy 
cultural section will work with Iraqi education officials to 
encourage many of the proposed 10,000 students to apply for 
admission to U.S. institutions.
    Professional and cultural exchanges are another important 
focus for the U.S. embassy. In 2009, approximately 140 Iraqis 
will participate in the International Visitor Leadership 
Program, in fields ranging from rule of law to water resource 
management. Summer 2009 programs for young people include 
scholarships for high school students (14 Youth Exchange and 
Study participants) and the Young Leader Exchange Program for 
university and high school students (140 participants). Iraqis 
participate in a variety of other exchange programs, such as 
the Hubert Humphrey Fellowship program for mid-career 
professionals (six participants in 2009).


    Question.  Please share information regarding our own 
Fulbright program in Iraq. How many scholars have we sponsored 
in the past 5 years, and how many have returned to Iraq to 
teach and work?

    Answer. Since the resumption of the Fulbright program in 
2004, 140 Iraqis have traveled to the United States under 
Fulbright auspices. Of that number, 45 are currently enrolled 
in academic programs and 26 have returned to Iraq to work and 
teach.We are concerned that a number of Fulbright grantees have 
asked to remain in the United States--often by applying for 
asylum--or have traveled to third countries rather than return 
to Iraq. This is a significant issue with implications for the 
future of the Fulbright program in Iraq. However, as conditions 
in Iraq improve, we expect to see a much higher return rate.


    Question.  I sponsored legislation to improve the Special 
Immigrant Visa program for Iraqis who have worked for the US 
government, particularly for translators and interpreters. What 
are the statistics on that program?

    Answer. The Special Immigrant Visa (SIV) programs have been 
essential to the ability of the USG to provide protection and 
safety to Iraqis who have helped USG efforts in Iraq. As you 
are aware, there are two distinct SIV programs authorized for 
Iraqis who have assisted the United States in Iraq. Section 
1059 of the National Defense Authorization Act (NDAA) for FY 
2006 authorized a program for Iraqi and Afghan translators and 
interpreters and Section 1244 of the NDAA for FY 2008 
authorized a program for Iraqis who have been employed by or on 
behalf of the USG.
    Through these two programs, we have been able to bring to 
the United States almost 2,000 Iraqis and Afghans who have 
worked with the USG in Iraq or Afghanistan to the United 
States. Including family members, the total number of Iraqis 
and Afghans who have immigrated to the United States under the 
two SIV programs is over 3,800.


    Question.  What is the incidence of post traumatic stress 
among officers who have served in Iraq? Are personnel screened 
before and after their tours in Iraq?

    Answer. Because there remains a perception among many of a 
stigma associated with treatment for mental health problems, as 
well as fears that treatment may jeopardize security and 
medical clearances, we believe that there is significant 
underreporting of stress-related symptoms in personnel 
returning from high stress, high threat, and unaccompanied 
tours like those in Iraq. Such underreporting makes an exact 
measurement of the incidence of Post-Traumatic Stress Disorder 
(PTSD) nearly impossible to achieve.In the summer of 2007, the 
Office of Medical Services (MED), in collaboration with the 
Family Liaison Office, did an anonymous email survey of 
approximately 2,600 Department of State (DOS) employees who had 
completed unaccompanied tours in 24 locations worldwide 
(including Iraq and Afghanistan). Of the 2,600, 826 responded, 
with the following results:

   Over half of the total reported stress related symptoms 
        (e.g., sleep disturbances, irritability, memory and 
        concentration problems, relationship difficulties).
   Two percent of the total could be diagnosed with PTSD based 
        on the results of the survey.
   An additional 15 percent may have had PTSD, but would 
        require further evaluation to make a diagnosis.

    Pre-deployment evaluation of mental health issues is 
currently done as a part of the medical clearance process. As 
part of the Deployment Stress Management Program, voluntary 
screening for psychological stress and baseline 
neuropsychological function of Diplomatic Security Officers is 
conducted during their pre-deployment training. Plans and 
procedures are in place to require screening of all personnel 
with the Primary Care-PTSD--a four-question PTSD screen used in 
the Department of Veterans Affairs health facilities--at check-
in at the Health Unit on arrival at post, at check-out from the 
Health Unit on departure from post, and when clinically 
indicated during the deployment. A positive screen will be 
further assessed with the PTSD Checklist-Civilian, which will 
be followed by an evaluation by the Regional Medical Officer/
Psychiatrist (RMO/P). If PTSD is diagnosed, the RMO/P will 
formulate a treatment plan. If the patient elects treatment, it 
will be provided, either locally as resources permit, or with 
medical evacuation to the United States to be treated by 
Department of State (DOS) mental health providers.
    The DOS also requires that all personnel departing an 
unaccompanied tour attend a High Stress Outbrief. This outbrief 
is training provided by the Foreign Service Institute, covering 
commonly encountered issues experienced by DOS personnel 
reintegrating into new assignments and personal lives. As part 
of this outbrief, MED provides information about PTSD and 
resources available for treatment, and offers voluntary 
screening and consultation for stress-related issues.
    The Deployment Stress Management Program is currently 
working with the Family Liaison Office and the Foreign Service 
Institute to develop Web-based resources to allow DOS personnel 
and their families to take self-assessment screens for PTSD and 
other deployment stress-related issues. These self-assessment 
screens would be confidential and anonymous, but would provide 
links to mental health resources for those desiring help.


    Question. Will you continue to use civilian contracted 
security details, will you rely more on military protection, or 
is there a way to ``Iraqify'' the protection of US diplomats, 
as we have done in Lebanon and elsewhere? Will DS be opening 
the WPPS contract up to outside bids, or will DynCorps and 
Triple Canopy compete for Blackwater's Iraq task orders?

    Answer. Diplomatic Security (DS) expects to continue to use 
contract protective security details in Iraq for the 
foreseeable future. With the drawdown in U.S. military forces, 
relying solely on military protection does not appear feasible. 
DS is pursuing the integration of Iraqi police personnel into 
the Embassy's static security and protective security details. 
This concept has been well-received and fully supported by the 
Iraqi Minister of Interior and local officials throughout Iraq. 
DS plans to train 400-500 Iraqi National Police in the next 24 
months. Training began in March 2009 in the Kurdistan Regional 
Government area and is scheduled to begin in Baghdad in May 
2009. These Iraqi security forces will supplement, but not 
completely replace the private security contractors currently 
being used.
    The Department is competing Blackwater's Iraq task orders 
(Baghdad, Al-Hilla, and Aviation Services) among all three WPPS 
companies (DynCorp, Triple Canopy, and Blackwater). Federal 
acquisition regulations require that Blackwater be permitted to 
submit a proposal. We expect Baghdad to be awarded during the 
week of March 30, 2009. Al-Hilla will be evaluated and awarded 
in April 2009, and the aviation task order will be competed 
during April and awarded in May. The transition timeline will 
be centered on the task orders' expiration dates: May 7 in 
Baghdad, August 4 in Al-Hilla, and September 3 for Aviation 
Services.


    Question. How much does it cost to train an Arabic speaker 
to 3:3 capability? What percentage of Arabic speakers in the 
Foreign Service have served at least a year in Iraq?

    Answer. The State Department provides Arabic training for 
either one or two years. For one-year training in Washington, 
DC, the cost is approximately $45,000 for language and area 
studies. Students who go on for a second year of studies are 
generally sent to our overseas language school in Tunis. The 
cost for one year in Tunis is approximately $35,000 to $40,000 
depending on the length of study. These costs do not include 
salary or the cost of supporting an overseas position in the 
case of the language school in Tunis.
    At this time, we do not have the exact figures, but we 
estimate that more than half of all Foreign Service Officers 
who speak Arabic at a 3/3 level have served at least one year 
in Iraq, with additional 3/3 speakers having served in Iraq for 
less than one year. We will continue to research this question 
and will provide a full answer as soon as we have gathered the 
data, which involves cross referencing data from several 
databases.


    Question. Often locally engaged staff are the eyes and ears 
of the Embassy into the local community. What is the mix of 
third country nationals versus Iraqis working in the Embassy 
today? Will you be working to employ more Iraqis in the 
Embassy?

    Answer. Over the past two years the number of Iraqi 
employees working in the Embassy has dropped significantly from 
approximately 194 in August 2006 to 34 now. This can be 
attributed to two factors: (1) the danger faced by Iraqis 
because of their association with the USG and, (2) the Special 
Immigrant Visa (SIV) program that was instituted this past year 
(to date 47 LE Staff have left the Embassy to take advantage of 
this program which will continue until 2013). To fill the gap 
left by the departure of Iraqi employees the Embassy has 
instituted a program to recruit LE Staff from other U.S. 
Embassies around the world for TDY service in Baghdad. They 
serve anywhere from 6 months to a year. At present there are 70 
TDY LE Staff from other embassies serving in Baghdad. As such, 
the ratio of Third Country Nationals to Iraqi employees working 
in the Embassy is roughly 2:1. As conditions in Iraq improve 
and become more stable over the next several years the 
Embassy's goal is to return to a completely Iraqi local 
workforce.


    Question. Iraq has yet to deal with claims American 
citizens and others have against the former regime. What is our 
policy on this issue? Where is the Iraqi government in 
beginning to deal with this matter?

    Answer. We are working to facilitate an effective approach 
to resolving this issue with Iraq, which includes making the 
claims of U.S. victims of Saddam Hussein's terrorism a 
priority. The Department has engaged a range of involved 
parties, including officials in the Iraqi government and the 
claimants' counsel, and will continue to engage with Iraq to 
encourage it to resolve these victims' claims.
    Iraq committed to settle existing claims and debts from the 
Saddam era, which would include claims from victims of acts of 
terrorism, in its December 2008 request to the Security Council 
to extend protections for the Development Fund for Iraq (DFI) 
and Iraqi oil and gas exports and revenues, including 
protections from legal attachment. Prime Minister Maliki's 
request for continued UN protections stated they were needed 
``until such time'' as Iraq is able to ``take the measures 
necessary to settle those debts and claims inherited from the 
previous regime.'' Foreign Minister Zebari stated upon adoption 
of resolution 1859 (2008) that Iraq was fully committed to 
resolving all legitimate claims. We expect Iraq to live up to 
these commitments and have attached a high priority to working 
with them in order to reach just and fair resolutions.


    Question. Will you institute a formal FMS process, and a 
traditional security cooperation organization, operating under 
Chief of Mission Authority? How soon do you expect to have this 
accomplished?

    Answer. Yes. Security cooperation and security assistance 
are already well-coordinated between Defense and State, and the 
Multi-National Security Transition Command--Iraq (MNSTC-I) and 
the Embassy. In accordance with the Arms Export Control Act, 
the State Department already approves all Foreign Military 
Sales (FMS) and works in close coordination with the Defense 
Security Cooperation Agency. The Department is working with DOD 
to assess and identify the best way forward for State to assume 
responsibility from DOD for this mission. At the appropriate 
time, the Secretary of State and the Secretary of Defense shall 
jointly decide on the transfer of security assistance functions 
to the authority of the Secretary of State and the Chief of 
Mission.


    Question. What is the GOI's vision for their own military 
in terms of equipment and modernization? What will be the 
primary mission of their force (i.e. interior defense, 
counterinsurgency, territorial defense, etc.)? Does this match 
our vision for the Iraqi Military? Are Iraq's neighbors 
supportive of this vision? Does the implementation of this 
program have any impact on our own ability to withdraw forces? 
Do we have a sense of whether the goals the GOI is laying out 
for its force modernization are ones that represent a Maliki 
view, or an Iraqi view?

    Answer. The Iraqi Ministry of Defense has developed a 
three-phased approach to modernizing Iraq's military. This 
plan, endorsed by Prime Minister Maliki, is well underway.
    Iraq's military modernization program is a 10-12 year 
approach designed to first develop the ability to conduct 
counterinsurgency (COIN) operations. Once COIN force generation 
is complete the plan is to transition the COIN force into a 
full spectrum force capable of providing internal security and 
territorial defense.
    We believe this program will align Iraq's military more 
closely to the U.S. and the West. It is only prudent to 
acknowledge that the program may be modified over time based 
upon budgetary realities, which may be affected by issues such 
as changes in the global price of oil.
    Congress was officially notified of the first two phases as 
of January 9th of this year, due to the plan's substantial 
reliance on U.S.-origin equipment.
    Iraq's neighbors were briefed on the plan in September 2008 
and all expressed support for an Iraq capable of providing for 
its own security and territorial defense.


    Question. What is the cost associated with this [military 
modernization] program, and what is the timeline for 
implementation? How much of these costs will be borne by the 
GOI? The American taxpayer? What is Iraq's defense budget, is 
it at the appropriate level given Iraq's other needs?

    Answer. Iraq has assumed responsibility for equipping its 
security forces, but a total cost of its three-phased, 10-12-
year Force Modernization Plan is difficult to calculate given 
decisions about suppliers and delivery times have not yet been 
made. The Force Modernization Plan is based on the Iraqis' 
ability to buy equipment.
    The 2009 Iraqi defense budget is $10 billion. This accounts 
for 17 percent of the $58 billion 2009 budget. U.S. Government 
funding for Iraq's military and police has diminished from 50 
percent in 2006 and 2007, to 25 percent in 2008.
    For 2009, cuts to the Iraqi defense budget are expected. 
The decline in world oil prices has presented a number of 
challenges, forcing the GOI to adopt a more conservative fiscal 
approach and seek additional efficiencies.


    Question. What is the long term vision for the security 
cooperation relationship between Iraq and the United States? 
How will Iraq fit into region and gulf security architectures? 
Is there an air defense component?

    Answer. As called for in the Strategic Framework Agreement, 
we will work to strengthen security and stability in Iraq, and 
thereby contribute to international peace and stability, and to 
enhance the ability of the Republic of Iraq to deter all 
threats against its sovereignty, security, and territorial 
integrity. We will continue to train and advise the Iraqi 
Security Forces, and work with them on their effort to properly 
equip these forces, with the goal of Iraq becoming self-reliant 
for both its internal and external defense.
    We will work with the Government of Iraq as well as with 
our regional partners in the Middle East to promote a region of 
secure, stable, independent, and responsibly governed states at 
peace with each other. We also envision an Iraq that is on 
equal footing with its neighbors and able to participate in the 
open global market of goods and ideas, cooperating with the 
United States and rejecting extremism. We support the inclusion 
of Iraq in regional joint exercises, and will work to encourage 
Iraq to collaborate with friendly regional militaries in a 
constructive manner.
    In accordance with the terms of the Security Agreement, 
surveillance and control over Iraqi airspace transferred to 
Iraqi authority on Jan 1, 2009. Also per the terms of the 
Security Agreement, at Iraqi request, we provide temporary 
support for these functions. The Iraqis have articulated 
potential requirements for air defense systems, but to date, 
there have been no formal requests for these systems.


    Question. Is Iraq building any of its own military 
equipment or seeking any other suppliers?

    Answer. Iraq lacks the capability to produce advanced 
military equipment. The U.S., through the Foreign Military 
Sales program, is the primary supplier for the Iraq military 
modernization program. In broad terms, the Iraqi Security 
Forces are in the midst of a transformation from their 
historical reliance on former Eastern Bloc equipment and 
doctrine to an approach that maximizes interoperability with 
U.S. forces. U.S. manufacturers provide the Iraqi Security 
Forces with the highest quality, most reliable equipment for 
most of their needs. On occasion the Government of Iraq selects 
another nation's manufacturer to fill a specific niche.


    Question. How many Iraqi officers are studying at US 
military academies and other training programs?

    Answer. As of March 27th, 2009, there were 15 Iraqi 
officers in formal training in the United States. The total 
number of Iraqi officers formally trained in the United States 
since 2004 is 213.


    Question. What are the keys to greater positive cooperation 
by Iraq's neighbors, particularly Saudi Arabia?

    Answer. We have witnessed over the past 12 months greater 
engagement by most of Iraq's neighbors with the Government of 
Iraq through the exchange of ambassadors, initiation of high-
level visits and the signing of bilateral agreements. Bilateral 
engagement between Iraq and Saudi Arabia, however, has lagged. 
Given the desire to reintegrate Iraq into the region, Saudi-
Iraqi relations are of particular importance considering Saudi 
Arabia's leadership in the Arab and Muslim world and the 
Kingdom's close partnership with the United States. We believe 
that, with our continued encouragement, both Iraq and Saudi 
Arabia can improve their bilateral relations in a number of 
ways, including discussing Iraq's debt to Saudi Arabia and 
facilitating cooperation on issues of mutual interest such as 
border security, trade and energy. Saudi Arabia, a member of 
the Gulf Cooperation Council (GCC), can also play a positive 
role in reintegrating Iraq into multilateral organizations.
    The key to fostering closer ties between Baghdad and Riyadh 
will be continued improvement of security within Iraq and 
greater participation by Sunnis in the Iraqi political process. 
Iraq has appointed an ambassador to Saudi Arabia, and we 
understand he will soon take up his post. We will continue to 
urge Saudi Arabia to appoint and post an ambassador to Iraq to 
facilitate dialogue on outstanding issues and build confidence.


    Question. How do you think your experience with the Six 
Party talks translates to the situation with Iraq's neighbors? 
Are you being prepared to open a line of communication with 
Iran? Have you been given direction?

    Answer. As lead negotiator in U.S. efforts to end North 
Korea's nuclear program, my goal was to work with North Korea 
and its neighbors--each with a unique history and resultant set 
of interests--to identify common interests and forge a shared 
way forward. This was a task that required a judicious balance 
of persuasion and pressure.
    While our mission in Iraq is different from that on the 
Korean Peninsula, both depend on the active, positive 
engagement of regional neighbors and sustained U.S. commitment. 
If confirmed, I intend to make it a priority to promote an Iraq 
that sovereign, stable, and self-reliant, and has normal 
relations with its neighbors.
    As I said in my testimony, our Iran policy is currently 
under review. If upon the conclusion of that review I am asked 
to make direct contact with Iran, I would be prepared to do so.


    Question. Just a year ago, Turkey had forces on the ground 
in Northern Iraq fighting the PKK. The relationship has changed 
fundamentally, to what do you credit that change and where do 
you see Iraq-Turkish relations headed?

    Answer. We have long encouraged Turkey and Iraq to work 
together on the shared threat of PKK terrorism and to improve 
bilateral ties more broadly. Since November 2007, we have been 
providing significant military and intelligence assistance to 
help Turkey fight the PKK. This assistance and an increase in 
dialogue between Turkey, Iraq, and the Kurdistan Regional 
Government led to significant progress and a fundamental shift 
in their relationships in 2008. Leaders on all sides made new 
commitments to dialogue at all levels, starting with Iraqi 
President Jalal Talabani's March 2008 visit to Ankara, an 
important opening just weeks after Turkey's February 2008 
ground offensive against PKK forces in northern Iraq. In April 
of that year, Turkey's National Security Council voted to start 
engagement with all parties in Iraq, opening the way for direct 
Turkish contact with KRG leadership. Turkish Prime Minister 
Erdogan visited Baghdad in July 2008; he and Iraqi leaders 
agreed to start a strategic dialogue on all bilateral issues, 
including energy and trade. Recently, President Talabani made 
public statements calling for PKK to lay down their arms or 
leave the territory. These various exchanges culminated with 
President Gul's March 23-25, 2009 visit to Iraq, the first 
visit by a Turkish President in 33 years. In November 2008, 
senior representatives of the governments of Iraq, Turkey, and 
the United States met in Baghdad to renew trilateral 
arrangements to share information and develop strategies for 
countering the PKK. We are hopeful that this frequent contact 
will continue to lead to concrete results, for example, in 
increased cooperation on countering the PKK and expanded 
economic ties.


    Question. What assurances can you and the Department of 
State give the Committee and my colleague Senator Voinovich 
that the Melanson child abduction case will continue to receive 
urgent attention by principals in the Department at the highest 
levels?

    Answer. One of the highest priorities of the Department is 
safeguarding the welfare of U.S. citizen children. Parental 
child abduction is a tragedy that has long-term consequences 
for both the child and the left-behind parent. Both federal and 
most states' criminal laws make international parental child 
abduction a crime in the United States. When a child is 
abducted across international borders, however, the case is 
complicated by the need to operate within the national laws of 
the country of destination. That country may not be party to 
international agreements covering parental child abduction. 
Such is the situation in South Korea.
    U.S. Ambassador to the Republic of Korea Kathleen Stephens 
and I have engaged personally to ensure that Mr. Melanson's 
case is and will remain a high priority for the Department of 
State. As I have mentioned to Senator Voinovich previously, the 
Department has engaged at high levels with the Korean 
Government on behalf of Mr. Melanson and we will continue to do 
so. Our Embassy in Seoul will also continue to follow this case 
closely and provide Senator Voinovich with frequent and regular 
updates.


    Question. Moreover, what steps will the Department take to 
ensure that this case be included in State's talking points 
during each and every bilateral meeting with the Republic of 
Korea-from desk officers all the way up to Secretary Clinton?

    Answer. State Department officials--at all levels--
understand the significance of this case and will continue to 
raise it vigorously and consistently in all settings that can 
contribute to the resolution. The Office of Korean Affairs and 
our Embassy in Seoul, including Ambassador Stephens personally, 
will do their utmost to raise this case in their dealings with 
the Korean government.


    Question. On April 13, U.S. Permanent Representative to the 
United Nations Susan Rice, in discussing the Security Council's 
Presidential Statement on North Korea, stated ``First of all, 
the United States views presidential statements, broadly 
speaking, as binding.'' Do you believe that presidential 
statements of the UN Security Council generally create legally 
binding obligations on UN Member States under the UN Charter?

    Answer. As a nominee, I have not participated in 
discussions around this particular matter. As a general matter, 
however, I would note that under Article 25 of the United 
Nations Charter, UN Member States are legally required ``to 
accept and carry out the decisions of the Security Council in 
accordance with the [UN Charter].'' There is nothing in the 
Charter that specifies the form in which the Council's 
decisions must be recorded.


    Question. In response to Question #1 of my pre-hearing 
questions for the record, you declined to indicate whether you 
would recommend any changes in the historical U.S. position 
that the International Covenant on Civil and Political Rights 
does not apply to U.S. actions outside the territory of the 
United States. While you indicated that it would be premature 
to suggest what interpretation you would recommend until you 
have had the opportunity to review fully the U.S. Government's 
rationale for its position, you are likely generally familiar 
with the issue from your prior service as Assistant Secretary 
of State for Democracy, Human Rights, and Labor.
    In response to Question #2 of my pre hearing questions for 
the record about when it might be appropriate for the Executive 
Branch to change its interpretation of a treaty, you indicated 
that, ``In all cases, I would apply a presumption that an 
existing interpretation of the Executive Branch should stand, 
unless a considered examination of the text, structure, 
legislative or negotiating history, purpose and practice under 
the treaty or statute firmly convinced me that a change to the 
prior interpretation was warranted.''
    In light of this standard and your general familiarity with 
the issue, are you aware of any present circumstances that you 
believe would warrant a reexamination of the historical U.S. 
position that the International Covenant on Civil and Political 
Rights does not apply to U.S. actions outside the territory of 
the United States? If so, please indicate what circumstances 
youbelieve would warrant such a reexamination.

    Answer. It is true that I am generally familiar with the 
issue discussed in this question, including the views expressed 
by former Legal Advisers Conrad Harper and John Bellinger, both 
from my academic work and from my prior service as Assistant 
Secretary of State for Democracy, Human Rights, and Labor. That 
said, I have not yet had the occasion to conduct the kind of 
considered examination of the text, structure, negotiating 
history, purpose and practice under the treaty that I believe a 
Legal Adviser should give to an issue before reaching a 
conclusion on a question of this importance, nor have I had the 
opportunity to review fully the U.S. Government's rationale for 
its existing position. For those reasons, I believe that it 
would be premature to suggest what interpretation I would 
recommend. If confirmed, 1 would seek to review thoroughly all 
of the past legal memoranda by the Legal Adviser's office and 
other government law offices on this issue, to examine the 
various fact patterns to which this interpretation might apply, 
and to consult with policymakers, other government attorneys, 
and members of this Committee and other interested members of 
Congress on this question.


    Question. If confirmed, would you intend to conduct any 
such reexamination of the U.S. interpretation of the ICCPR?

    Answer. For a number of reasons, J believe it is advisable 
for the Legal Adviser's office to avoid giving its legal advice 
in the abstract, but rather, to provide that advice when asked 
a real-life question, based on a concrete set of facts and an 
anticipated policy choice. If I were confirmed, and asked to 
apply the existing U.S. interpretation of the ICCPR, I would 
determine at that time whether such a decision posed an 
occasion to conduct the kind of considered legal examination 
discussed in my prior answer.


    Question. In Question #21 of my pre-hearing questions for 
the record, I asked what U.S. interests you believe are 
implicated by efforts of foreign courts to assert criminal 
jurisdiction over sitting or former U.S. officials for acts 
undertaken in the course of their official duties. In your 
response to this portion of the question, you indicated that 
``There can be no doubt that very important U.S. interests are 
implicated by'' such efforts, but you did not specify what you 
believe these interests to be. Please indicate what U.S. 
interests you believe are implicated by efforts of foreign 
courts to assert criminal jurisdiction over sitting or former 
U.S. officials for acts undertaken in the course of their 
official duties.

    Answer. As I suggested in some of my answers to your Pre-
Hearing Questions, prosecutions against U.S. officials in 
foreign tribunals for acts undertaken in their official duties 
raise a number of issues that are of very serious concern to 
U.S. interests. Of course, the United States has a vital and 
pressing interest not just in enforcing its own laws, but also 
in protecting U.S. officials and soldiers from baseless or 
unwarranted charges and prosecutions, and from the chilling 
effect that possible foreign charges and prosecutions might 
cast over daily decisionmaking. Such actions may implicate 
doctrines relating to immunity, overly expansive assertions of 
foreign criminal jurisdiction, and efforts by political 
opponents of particular U.S. policies to seek leverage by 
invoking foreign jurisdictional provisions to initiate criminal 
complaints against United States officials. If confirmed, I 
would become a U.S. government official working closely with 
other U.S. officials who must daily make difficult and 
sensitive decisions. I therefore intend to follow such cases 
very closely, in coordination with the Department of Justice 
and other U.S. agencies, and to work with our foreign 
counterparts to determine how best to deal with these cases.


    Question. You have raised questions about the legality 
under international law of the 2003 invasion of Iraq, largely 
on the ground that the UN Security Council did not pass a 
resolution specifically authorizing the use of force in 
advance. In responses to Questions #34-35 of my pre-hearing 
questions for the record on the separate issue of whether 
states may use force without Security Council authorization to 
protect populations from atrocities, you appear to suggest that 
there may be some appropriate scope for such action.
    Against this background, please discuss your views on when 
states may use force without specific prior authorization from 
the UN Security Council. Are the considerations different when 
states seek to use force to address threats such as terrorism 
or weapons of mass destruction than they are when force is 
proposed as a means to address wide scale atrocities?

    Answer. Under Article 2(4) of the Charter of the United 
Nations, all UN member states have agreed to refrain from the 
threat or use of force against the territorial integrity or 
political independence of any state, or in any other manner 
inconsistent with the Purposes of the United Nations. However, 
under Article 51 states are permitted to use force without 
prior Security Council authorization when exercising their 
inherent right of individual or collective self-defense if an 
armed attack occurs, including to use force to protect their 
own nationals. As I noted in my answer to Senator Lugar's 
Prehearing Question 33, I agree with the 2004 report by a high 
level panel convened by then U.N. Secretary General Kofi Annan 
that states that ``a threatened State, according to long-
established international law, can take military action as long 
as the threatened attack is imminent, no other means would 
deflect it and the action is proportionate.'' Cases involving 
the possible use of force as a means to address widespread 
atrocities present a different set of issues insofar as the 
rationale for using force in such cases is not based on the 
right of self-defense. There are in fact widely differing views 
regarding whether using force for humanitarian purposes is 
permissible under international law. As I state in my answer to 
a question from Senator DeMint, I believe that the U.S. use of 
force in Kosovo was both lawful and the right thing to have 
done. The Kosovo intervention was expressly premised on 
humanitarian intervention grounds and had broad multilateral 
support. There was no reasonable alternative to the use of 
force. As Assistant Secretary of State for Democracy, Human 
Rights and Labor during that period, I read extensive reports 
indicating that forces from the Federal Republic of Yugoslavia 
and Serbia were engaged in massive and sustained repression 
against the Kosovar Albanian population, they had acted in 
flagrant contravention of resolutions that the UN Security 
Council had adopted under Chapter VII, and a humanitarian 
catastrophe was unfolding that threatened not only the people 
of Kosovo but the security and stability of the entire region. 
The intervention was supported by a multilateral NATO decision, 
and significantly, shortly after NATO commenced military 
operations, a resolution introduced in the Security Council 
would have called NATO's use of force unlawful, but that 
resolution was soundly defeated by a 12 to 3 vote.
    If confirmed as Legal Adviser, I would similarly want to 
look carefully at the specific facts and circumstances of any 
particular proposed use of military force involving such 
humanitarian considerations before rendering a legal opinion 
regarding its permissibility under intemational law.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
